                          SECRET
            Report No. D-2010-039   January 29, 2010




           Recapitalization and Acquisition of
          Light Tactical Wheeled Vehicles (U)




Derived from: Multiple Sources
Declassify on: October 19, 2030



                          SECRET
                                        SECRET




Additional Copies
(U) To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
(U) To suggest or request future audits, contact the Office of the Deputy Inspector
General for Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932,
or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




(U) Acronyms and Abbreviations
ACAT                         Acquisition Category
ECV                          Expanded Capacity Vehicle
ECV2                         Next Generation Expanded Capacity Vehicle
FAR                          Federal Acquisition Regulation
HMMWV                        High Mobility Multi-Purpose Wheeled Vehicle
IED                          Improvised Explosive Device
IR&D                         Independent Research and Development
JLTV                         Joint Light Tactical Vehicle
M-ATV                        Mine Resistant Ambush Protected-All-Terrain Vehicle




                                        SECRET

                                           SECRET

                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 




                                                                                JanualY 29, 2010

MEMORANDUM FOR DIRECTOR, OPERATIONAL TEST AND EV ALUA TION
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: (U) Recapitalization and Acquisition of Light Tactical Wheeled Vehicles
             (Report No. D-20 I 0-039)

(U) We are providing this report for review and comment. We considered management
comments on a draft of this report in preparing the final report.

(U) DOD Directive 7650.3 requires that recommendations be resolved promptly. The
comments from the Director, Operational Test and Evaluation, and the Commanding
General, U.S. Army Training and Doctrine Command, were responsive. We revised two
recommendations to ensure that the Army conducts live fire testing of any recapitalized
HMMWV configurations under consideration and the DOD has oversight over those
tests. The comments from the Deputy for Acquisition and Systems Management, Office
of the Assistant Secretmy of the Allny (Acquisition, Logistics, and Technology) were not
responsive for Recommendations A.l.a, A.l.b, and A.l.c. As a result, we request
additional comments from the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology) as indicated in the table on page ii by March I, 20 I O.

(U) If possible, send a .pdf file containing your comments to audacm@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for
your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

(U) We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Richard B. Jolliffe at (703) 604-9201 (DSN 664-9201).




                                                MalY L. Ugone
                                                Deputy Inspcctor General
                                                    for Auditing




Q8riv88 frsm: A4:ulti}3ie Ssm"ess 

Q881889if~,. 811: Oetsa8r 19, 2939 



                                           SECRET 

                 UnelRssified ,,/lIen   Se~RI'Rted   frsN. elRssiH8R 811elesU1'8 

SECRET





SECRET

                                             SECRET
 Report No. D-2010-039 (Project No. D2009-D000AE-0007.000)                                   January 29, 2010
                 Results in Brief: Recapitalization and Acquisition of
                 Light Tactical Wheeled Vehicles (U)

What We Did (U)                                                  (U) The Project Manager’s actions show an internal
(U) We determined whether the Army effectively                   control weakness in oversight by the Program Executive
managed efforts to develop, test, and acquire armor              Office for Combat Support and Combat Service Support.
solutions for light tactical wheeled vehicles. Specifically,     What We Recommend (U)
we reviewed the Army’s acquisition actions for the Risk
Reduction Vehicle (XM1166) and the Next Generation           (FOUO) The Assistant Secretary of the Army
Expanded Capacity Vehicle (ECV2) and the Army’s plan         (Acquisition, Logistics, and Technology) should direct the
for the recapitalization of the High Mobility                Program Executive Officer for Combat Support and
Multi-Purpose Wheeled Vehicle (HMMWV) fleet.                 Combat Service Support to continue live fire tests on the
                                                             XM1166 and any other HMMWV recapitalization
What We Found (U)                                            configurations under consideration to ensure the results
(FOUO) The HMMWV recapitalization program may                are comparable with the M1151-model HMMWV; assess
significantly improve crew survivability from                the feasibility of recapitalizing HMMVWs currently in use
                   by using the semimonocoque cab of the to the XM1166 or similar configuration; and, if feasible,
XM1166, or similar configuration, for recapitalizing         recapitalize current HMMWVs to the XM1166, or similar,
vehicles. However, the Project Manager for Tactical          configuration to better protect against
Vehicles (Project Manager) stopped the testing on the                                           The Director, Operational
XM1166 and did not assess the feasibility of recapitalizing  Test  and Evaluation,  should   add all recapitalized
                                                          *  HMMWV       configurations   to the Office of the Secretary of
other HMMWV models to the XM1166 configuration.
                                                             Defense Test and Evaluation Oversight List for live fire
(U) The Project Manager planned to acquire                   test and evaluation oversight.*
11,500 ECV2s at an estimated cost of $3.84 billion
without establishing the ECV2 Program as a new start         (U) The Assistant Secretary of the Army (Acquisition,
acquisition program, without planning to conduct full and Logistics, and Technology), in coordination with the
open competition, and without determining the ECV2’s         Commanding General, U.S. Army Training and Doctrine
capabilities compared with those of current and planned      Command, should analyze the capabilities of currently
light tactical wheeled vehicles. The Under Secretary of      fielded and future light tactical wheeled vehicles as part of
Defense for Acquisition, Technology, and Logistics was       the Joint Capabilities Integration and Development
not informed, as required, of this acquisition. The Project System process to determine the need for the ECV2. We
Manager risked procuring a vehicle that duplicated           also recommend that the Assistant Secretary designate any
existing capabilities and had vulnerabilities that other     future ECV2 Program as a new start and, if appropriate, a
vehicles are being procured to mitigate. During the audit major Defense acquisition program; and, if the need is
and after our discussions, the Project Manager decided to justified, use full and open competition to procure the
stop the ECV2 Program because the Army Deputy Chief          vehicles.
of Staff (G-8) decided not to invest in it. As a result, the Management Comments and Our
Army put $3.84 billion in Other Procurement, Army
funding to better use for FY 2010 through FY 2013.           Response (U)
                                                             (U) With the exception of the Deputy for Acquisition and
(U) On November 20, 2009, the Under Secretary of             Systems Management comments responding for the Office
Defense for Acquisition, Technology, and Logistics           of the Assistant Secretary of the Army (Acquisition,
designated the HMMWV Program an Acquisition                  Logistics, and Technology), report responders agreed with
Category IC major Defense acquisition program. He also or met the intent of recommendations addressed to them.
required the Assistant Secretary of the Army (Acquisition, In finalizing the report, we revised two recommendations
Logistics, and Technology) to notify him if the Army         to ensure that the Army conducts live fire testing of any
plans to procure a new model or variant of the HMMWV. recapitalized HMMWV configurations under
                                                             consideration and the DOD has oversight over those tests.
                                                             We request comments as indicated in the
                                                             recommendations table on page ii.

* This paragraph omitted For Official Use Only information.
                                                              SECRET
                                                                 i
                                            SECRET
Report No. D-2010-039 (Project No. D2009-D000AE-0007.000)                 January 29, 2010


 Recommendations Table (U)

 Management                                           Recommendations       No Additional
                                                      Requiring Comment     Comments Required
 Director, Operational Test and Evaluation                                  A.2

 Assistant Secretary of the Army (Acquisition,        A.1.a                 B.1
 Logistics, and Technology)                           A.1.b                 B.2.a
                                                      A.1.c                 B.2.b
 Commanding General, U.S. Army Training and                                 B.1
 Doctrine Command


 (U) Please provide comments by March 1, 2010. 





                                                 SECRET
                                                    ii
                                     SECRET




Table of Contents (U)

Introduction	                                                            1


      Objectives                                                         1

      Background                                                         1

      Review of Internal Controls                                        4


Finding A. Recapitalization of the High Mobility Multi-Purpose

Wheeled Vehicle                                                          6


      Recommendations, Management Comments, and Our Response 	          16 


Finding B. Army Management of the Next Generation Expanded Capacity 

Vehicle Acquisition                                                     21     


      Management Actions                                                27 

      Recommendations, Management Comments, and Our Response            28 


Appendices

      A. 	Scope and Methodology                                         31 

             Prior Coverage                                             33 

      B. Available Competitive Procedures 	                             35 

      C. Acquisition of the Next Generation Expanded Capacity Vehicle   36 

      D. Management Comments on the Findings and Our Response 	         39 


Glossary	                                                               50     


Management Comments

      Director, Operational Test and Evaluation                         54 

      Department of the Army

             Deputy for Acquisition and Systems Management, 

                    Office of the Assistant Secretary of the Army 

                    (Acquisition, Logistics, and Technology)            55 

             U.S. Army Training and Doctrine Command 	                  63 





                                     SECRET

SECRET





SECRET

                                        SECRET




Introduction (U)
Objectives (U)
(U) The objective of the audit was to determine whether the Army effectively managed
efforts to develop, test, and acquire armor solutions for light tactical wheeled vehicles.
Specifically, we reviewed the Army’s acquisition actions concerning the Risk Reduction
Vehicle (XM1166) and the Next Generation Expanded Capacity Vehicle (ECV2) and the
Army’s plan for the recapitalization of the High Mobility Multi-Purpose Wheeled
Vehicle (HMMWV) fleet. See Appendix A for a discussion of the scope and
methodology and prior coverage related to the audit objective.

Background (U)
(U) This audit was initiated as a result of information gathered while conducting the
audit that led to Report No. D2009-030, “Marine Corps Implementation of the Urgent
Universal Needs Process for Mine Resistant Ambush Protected Vehicles,” December 8,
2008. Specifically, the audit team was presented with information that questioned the
survivability of the HMMWV from mines and improvised explosive devices (IEDs). The
audit team plans to issue a second report to discuss the adequacy and oversight of live fire
testing for the HMMWV Program.

High Mobility Multi-Purpose Wheeled Vehicles (U)
(U) The HMMWV is a lightweight, high-performance, four-wheel-drive, air
transportable, and air droppable family of vehicles. The Army identified the need for
such a vehicle in the late 1970s and issued a draft specification for the HMMWV in 1979.
In May 1983, the Army awarded AM General the initial HMMWV production contract,
and production began in the fall of 1984.

AM General (U)
(U) AM General is a privately held company owned by The Renco Group Inc. and 

MacAndres & Forbes Holdings. Once part of American Motors Corporation, 

AM General began designing the HMMWV in 1979 and has since sold more than 

200,000 vehicles to the U.S. military and to other countries.


Management of the High Mobility Multi-Purpose Wheeled Vehicle
Program (U)
(U) The Program Executive Office for Combat Support and Combat Service Support is a
part of the TACOM Life Cycle Management Command, which unites all acquisition
organizations that focus on soldiers and ground systems throughout the entire life cycle.
The Program Executive Office’s focus is on equipping and supporting the warfighter
through development and fielding of systems with increased capability. The Project
Manager for Tactical Vehicles (Project Manager) is part of the Program Executive Office
for Combat Support and Combat Service Support and focuses on increasing the relevance

                                        SECRET
                                           1
                                            SECRET


and readiness of the tactical wheeled vehicle fleet and ensuring that the best possible
product is available to support the current force and beyond. The Product Manager for
Light Tactical Vehicles reports to the Project Manager for Tactical Vehicles and manages
the HMMWV Program.
Armor for High Mobility Multi-Purpose Wheeled Vehicles (U)
(S) In 1993, HMMWV losses during Operation Continue Hope, the follow-on mission to
Operation Restore Hope, caused the Army to develop and procure an armor kit for
immediate use in Somalia. The design team for the armor kit concluded that the design
would require

                                                            In January 1994, the Army
delivered 50 up-armored HMMWVs, designated XM1109s, to Somalia. Later, the Army
developed the M1114 to correct XM1109 performance shortfalls, including the need for
an improved chassis, air-conditioning, a turbo-charged engine, and a larger radiator. The
M1114 was the first up-armored HMMWV built on the improved Expanded Capacity
Vehicle (ECV) chassis. The ECV-model HMMWVs have a gross vehicle weight1 of
12,100 pounds.2 *
(U) Over the past 15 years, the Army has continued to procure and field upgraded
ECV-model HMMWVs to include the M1114, M1151, M1152, M1165, and M1167.
Figure 1 shows an M1151 up-armored HMMWV with a fragmentation kit 5 and
objective gunner’s protection kit installed. As of January 2010, the Army had
33,184 up-armored HMMWVs and 113,934 nonarmored HMMWVs in its inventory.
              (U) Figure 1. M1151-Model HMMWV With Fragmentation
                     Kit 5 and Objective Gunner’s Protection Kit




1
  (U) For the definition of this and other terms, see the Glossary. 

2
  (U) The ECV-model HMMWV initially had a gross vehicle weight of 11,500 pounds, which was later 

increased to 12,100 pounds.

*
  This paragraph omitted classified information.

                                            SECRET
                                               2
                                       SECRET


Risk Reduction Vehicle or XM1166 (U) 

(U) In December 2004, while the Army developed the M1151-model HMMWV as a
replacement for the M1114-model HMMWV, the Product Manager for Light Tactical
Vehicles directed the simultaneous development of the Risk Reduction Vehicle. The
Risk Reduction Vehicle, later named the XM1166, is a variant of the M1151-model
HMMWV and incorporates extensive body modifications. The XM1166 has a
semimonocoque welded aluminum cab built on a common ECV chassis. It improves
crew survivability through significant structural improvements to the crew compartment.
It has a gross vehicle weight of 12,100 pounds and was built by General Purpose
Vehicles. Figure 2 shows an XM1166-model HMMWV.
                      (U) Figure 2. XM1166-Model HMMWV




Next Generation Expanded Capacity Vehicle (U)
(U) In March 2005, AM General began to develop the ECV2. The intent of the ECV2
Program was to restore the balance between HMMWV payload and performance while
still carrying the required armor protection. The ECV2 models have a gross vehicle
weight of 18,000 pounds, and variants include a command and control vehicle
(XM1211), an armament carrier (XM1212), a shelter/troop carrier (XM1213), a
Tube-Launched Optically-Tracked Wire Guided weapons carrier (XM1214), and an
ambulance (XM1225). Figure 3 shows an XM1211 up-armored ECV2.
                 (U) Figure 3. XM1211-Model Up-Armored ECV2




                                       SECRET
                                          3
                                        SECRET



Update of Acquisition Category (U)
(U) On March 9, 2009, the Acting Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) issued an acquisition decision memorandum for the
HMMWV family of vehicles. The memorandum required that the Project Manager and
the Program Executive Officer for Combat Support and Combat Service Support
(Program Executive Officer) formally notify the Under Secretary of Defense for
Acquisition, Technology, and Logistics that the HMMWV program had broken the
Acquisition Category (ACAT) I program threshold and seek the appropriate
ACAT reclassification.

(U) The Acting Assistant Secretary’s acquisition decision memorandum also required
the Project Manager and the Program Executive Officer to submit a formal request to the
Under Secretary of Defense for Acquisition, Technology, and Logistics for the
appropriate ACAT designation for the ECV2 family of vehicles.

(U) On May 13, 2009, the Project Manager submitted a memorandum to the Acting
Assistant Secretary requesting that the HMMWV program be reclassified as an ACAT IC
program. The Project Manager also stated that a requirement for ECV2 vehicles had not
been established, but that, should the requirement be validated, he would submit an
ACAT level recommendation to the Acting Assistant Secretary.

(U) On November 20, 2009, the Under Secretary of Defense for Acquisition,
Technology, and Logistics designated the HMMWV Program an Acquisition
Category IC major Defense acquisition program. He also required the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) to notify him if the
Army plans to procure a new model or variant of the HMMWV.

Review of Internal Controls (U)
(U) DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in acquisition planning by the Program Executive Officer. Although internal
controls outlined in the DOD 5000 series of guidance were adequate for controlling
acquisitions such as the ECV2 Program, the Program Executive Office for Combat
Support and Combat Service Support did not use those controls. Specifically, the Project
Manager for Tactical Vehicles planned to acquire the ECV2 to replace the current
ECV-model HMMWV without first determining through the Joint Capabilities
Integration and Development System process whether current or projected tactical
wheeled vehicles already provide the capabilities planned for the ECV2 Program, without
establishing the ECV2 Program as a new start, and without planning to obtain full and
open competition. Implementing Recommendations B.1, B.2.a, and B.2.b will improve
controls for validating need before buying a new vehicle, establishing the vehicle as a



                                        SECRET
                                           4
                                        SECRET


new start program and determining its appropriate acquisition category, and obtaining full
and open competition. We will provide a copy of the report to the senior official
responsible for internal controls in the Department of the Army.




                                        SECRET
                                           5
                                            SECRET




A. Recapitalization of the High Mobility
Multi-Purpose Wheeled Vehicle (U)
(FOUO) The Project Manager for Tactical Vehicles (Project Manager) may be able to
improve crew survivability from          by using the semimonocoque cab of the XM1166,
or similar configuration, for recapitalizing HMMWVs. However, the Project Manager is
not planning to conduct needed live fire tests of the XM1166 configuration or assess the
feasibility of recapitalizing other HMMWV models to the XM1166 or similar
configuration. As a result, the Project Manager is missing an opportunity to potentially
enhance capabilities of the HMMWV family of vehicles and provide the warfighter
                                                                *
riding in a HMMWV the best available protection against

Live Fire Test and Evaluation (U)
(U) DOD uses live fire tests to evaluate the vulnerability and lethality of a conventional
weapon or weapon system. The conduct of live fire test and evaluation is required for
covered systems or product improvements to a covered system before the milestone
decision authority can approve the system to proceed beyond low-rate initial production.
By law, a covered system is any vehicle, weapon platform, or conventional weapon
system that includes features designed to provide some degree of protection to users in
combat and that is an ACAT I or II program. The Director, Operational Test and
Evaluation, is required to approve the live fire test and evaluation strategy for covered
systems before the engineering and manufacturing development decision point of the
acquisition process.

XM1166 Configuration (U)
(U) The XM1166 vehicle has a semimonocoque welded aluminum cab built on an ECV
chassis, and the Project Manager estimates that the vehicle would cost about $219,000 if
built solely by General Purpose Vehicles.3 The cost of the XM1166 would likely drop
dramatically if AM General used its HMMWV production line to produce the XM1166.
The XM1166 is 528 pounds lighter than the M1151 with fragmentation kit 54 under full
combat load. The XM1166 doors have a fragmentation kit 5 level of protection built in.
The area around the doors of the XM1166 contains the same level of protection as the




*
  This paragraph omitted For Official Use Only information. 

3
  (U) The Project Manager estimates that the M1151-model HMMWV with fragmentation kit 5 costs about 

$195,500. 

4
  (FOUO) Fragmentation kit 5 includes 
                                                  .
Fragmentation kit 5 typically includes the
                                   . Objective fragmentation kit 5 provides   and includes
                                                                                            *
fragmentation kits 1 and 2, which provide


                                            SECRET
                                               6
                                               SECRET


doors of the XM1166 and the M1151 with fragmentation kit 5. Depending on the
mission of the vehicle, the rear doors on the XM1166 can be configured to open forward
(Figure 4) or to open rearward (Figure 5).

      (U) Figure 4. XM1166                                       (U) Figure 5. XM1166
    Rear Doors Opening Forward                                 Rear Doors Opening Rearward

             F                                                          F
             R                                                          R

             O
                                                         O

             N
                                                         N

             T                                                          T


(U) A contract to begin work on the XM1166 was awarded in December 2004, and the
first vehicle was delivered to the Army in February 2005. In May 2006, the Army
contracted the effort to develop a level three technical data package5 for the body of the
XM1166 and the integration of the body on the ECV chassis. The Government accepted
the technical data package in June 2007.

XM1166 Vehicle Acquisition and Fielding (U)
(U) On May 12, 2006, the TACOM Life Cycle Management Command contracted with
General Purpose Vehicles for 30 XM1166 bodies to be integrated on the M1151-model
HMMWV chassis. The previous day, the Marine Corps Systems Command had
approached the Project Manager with approval and funding for the purchase of
10 additional XM1166s. The Army contract was modified in November 2006 to add the
purchase of the 10 XM1166s. In May 2008, the Marine Corps sent 9 XM1166s to Iraq
and exchanged 225 older HMMWVs from Marine Corps storage for 13 of the Army’s
30 XM1166s. As of January 2010, the Marine Corps had brought back the vehicles that
were in Iraq and now has 22 XM1166s in storage at the Marine Corps Logistics
Command in Albany, Georgia, and 1 vehicle at the Marine Corps Base Quantico,
Virginia (for demonstration).

Cessation of Army Acquisition (U)
(U) In April 2007, the Product Manager for Light Tactical Vehicles planned to ship
five XM1166s to theater, and in May 2007, the Product Manager approached theater
commanders about having soldiers try XM1166s to assess their capabilities. Shipment of
the vehicles was contingent on theater acceptance. However, the Product Manager stated
that commanders in the field would not accept the XM1166s because the field




5
  (U) A technical data package for an item defines the required configuration and procedure to ensure
adequacy of item performance and consists of all applicable technical data such as drawings, associated
lists, specifications, standards, performance requirements, quality assurance provisions, and packaging
details. A level three technical data package is adequate for supporting production.

                                               SECRET
                                                  7
                                                SECRET


commanders were concerned the XM1166 would be targeted based on its unique
appearance. The Product Manager stated he was able to field fragmentation kit 56 for the
M1151 faster and in greater quantities than the XM1166.

(FOUO) In the summer of 2007, more than 2 years after the XM1166 was unveiled to
the Army, the Project Manager stated he decided not to pursue the XM1166 because its
protective advantage over the M1151-model HMMWV was diminished to a degree by
the integration of fragmentation kit 5. However, the doors in the XM1166 have
integrated fragmentation kit 5-level protection, in addition to the XM1166’s
semimonocoque welded cab, which introduces improved crew survivability against
       through significant structural improvements to the crew compartment as compared
with the M1151-model HMMWV.*

(U) The Product Manager for Light Tactical Vehicles stated that the Project Manager
would not field available XM1166s until a fragmentation kit 67 was developed for the
XM1166. In March 2008, the Army began an effort to design a fragmentation kit 6 for
the XM1166. The Product Manager stated that the rearward-opening doors (Figure 5) of
the XM1166 were a potential solution to a problem with the doors of the M1151 with
fragmentation kit 6.8 Thus far, the Product Manager stated, TACOM Life Cycle
Management Command Industrial Base Operations Directorate has mocked up a
fragmentation kit 6 solution for the XM1166. As of January 2010, the Army had
15 unused XM1166s.9

XM1166 Test Results (U)
(U) The XM1166 was developed as a risk reduction solution, and underwent expedited
testing to support urgent materiel release for urgent fielding. The November 2006 Army
Test and Evaluation Command Capabilities and Limitations Report for the XM1166
stated that insufficient XM1166 assets were provided for ballistics testing and that
additional IED test events were needed to fully characterize the XM1166’s ballistic
survivability. Accordingly, a complete analysis of the XM1166 as compared with the
M1151 is not possible until all necessary tests are conducted on the XM1166.



6
    (FOUO) Objective fragmentation kit 5 provides
                                                                            The XM1166 has fragmentation
kit 1, 2, and 5 levels of protection built in.*
*
  This paragraph omitted For Official Use Only information.
7
  (FOUO) Fragmentation kit 6 provides protection from
          *
8
  (U) The March 2007 Army Test and Evaluation Command Capabilities and Limitations Report for the
interim fragmentation kit 6 for the M1114 states that entry and exit from the vehicle are hindered by the
increased thickness of the doors after the installation of interim fragmentation kit 6. Specifically, when the
rear door of the M1114 with interim fragmentation kit 6 is fully open, the rear door armor contacts the front
door armor, preventing the front door from being opened.
9
  (U) The Army procured 30 XM1166s, used 2 as test assets, traded 13 to the Marine Corps, sent 1 to Rock
Island Arsenal, Illinois, and stored the remaining 14 at Blue Grass Army Depot, Richmond, Kentucky.

                                                SECRET
                                                   8
                                                SECRET�



(S) Although the XM1166 and M1151 with fragmentation kit 5 did not receive all of the
same live fire tests both vehicles were tested against
                                                           The M1151
                                                        The XM1166 had
               Although this is just one test the results highlight the potential for
increased protection that the XM1166 provides over the M1151 with fragmentation
kit 5.*

HMMWV Protection Requirements (U)
(S) The September 2004 HMMWV Operational Requirements Document states that the
HMMWV is to provide the crew small-arms protection from multiple hits from
                                      fired at a standoff of            with no
perforation. The opaque armor of the M1151A1 with fragmentation kit 5 protects against
                                                                . �ased on engineering
analysis armored surfaces of the XM1166 are expected to provide protection against
                          10
                                                    A representative from the �ational
�round Intelligence enter stated that although testing at

            �The Project Manager stated that the use of                        a
repeatable test parameter. The ballistic tests on the M1151 with fragmentation kit 5 and
the XM1166 were not identical. The XM1166 crew compartment met the
           requirement for                                         in the HMMWV
Operational Requirements Document. However the M1151 with fragmentation kit 5 did
not meet the
                                       11*



(FOUO) A subject matter expert for the Joint Improvised Explosive Device Defeat
Organization prepared a briefing on observed threats to vehicle occupants in Operation
Iraqi Freedom in September 2006. The Joint Improvised Explosive Device Defeat
Organization briefing stated that                     can be assumed for typical rifle
engagement and                         for medium machine gun engagement. Further
                                       nstrated a
the briefing stated that the enemy demonstrated
                                       .� Further in a large-scale �orth Atlantic Treaty


*
  This paragraph omitted classified information.
10
   (U) A ball round is filled with lead and usually has an outer metal jacket. An armor-piercing round has a
hard steel core a small amount of lead on the front and back and an outer metal jacket. Armor-piercing
rounds are more likely to pierce armor than ball rounds.
11
   (S) The M1151 with fragmentation kit 5 did meet the
requirement in the HMMWV Operational Requirements Document in the
                                                            The Product Manager for ight Tactical Vehicles
added a 1-inch aluminum plate to the -pillar and fragmentation kit 7 is designed to provide
                        .t
† This paragraph omitted For Official Use Only information.
t
  This paragraph omitted classified and For Official Use Only information.

                                                SECRET�
                                                   9
                                                SECRET


Organization test in which the subjects were not told of the experiment’s purpose,
                                                                                       In
this context, it is worth noting that the side windows of the XM1166 are about 22 percent
thicker than those on the M1151 with fragmentation kit 5 installed. The windshields of
the M1151 and the XM1166 are the same thickness.12*
Improvised Explosive Device Test Results (U)
(U) IEDs have caused more than 70 percent of all American combat casualties in Iraq
and 50 percent of combat casualties in Afghanistan, both killed and wounded.13 Since
June 2007, IED attacks in Iraq have decreased; however, the number of effective IED
attacks in Afghanistan has increased. Mines and IEDs injure vehicle occupants through
vehicle deformation, gross vehicle acceleration, and fragments.
Vehicle Deformation (U)
(U) Vehicle deformation occurs when the blast pressure load imparted to the vehicle
structure causes the vehicle structure to rapidly deform. The semimonocoque cab
of the XM1166 introduces improved crew survivability through significant structural
improvements to the crew compartment over the M1151.
(FOUO) The XM1166 crew compartment structure has welded joints, which are
superior to the riveted joints on the M1151. The welded joints help prevent the vehicle
from collapsing during an               Figure 6 shows the welded B-pillar of the
XM1166, and Figure 7 shows the reinforced bolt-on B-pillar of the M1151. Figure 8
shows the complete welded cab of the XM1166.*
     (U) Figure 6. Welded B-Pillar                   (U) Figure 7. Bolt-on B-Pillar
               of the XM1166                                 of the M1151




12
   (U) The Product Manager for Light Tactical Vehicles stated that recent improvements in ballistic glass
allow for equal protection from thinner panes or increased protection from the same thickness of the glass.
*
  This paragraph omitted For Official Use Only information. 

13
   (U) From DOD Personnel and Military Casualty Statistics, Defense Manpower Data Center, Casualty 

Summary by Reason, October 7, 2001, through August 18, 2007.


                                                SECRET
                                                  10
                                           SECRET



                        (U) Figure 8. Welded Cab of the XM1166





Gross Vehicle Acceleration (U) 

(U) Gross vehicle acceleration occurs when the blast from a mine detonation propels a
vehicle upward, sometimes even flipping it over. The large acceleration involved with
launching the vehicle and the large deceleration occurring when the vehicle crashes down
injure vehicle occupants. Spinal injuries and internal organ rupture are injuries
associated with gross vehicle acceleration.

(S) The M1114 had an energy-absorbing support structure under the commander’s seat,
but it was removed from the M1151 design to meet ground clearance requirements. The
Product Manager for Light Tactical Vehicles stated that the commander’s seat cushion in
the M1151 incorporates a rubber acceleration mitigation device. The Army Test and
Evaluation Command found, however, when conducting tests of a
                                          M1151 on June 17, 2009, that the
                                                                                 The
test

                                                             However, more than
two-thirds of antivehicular landmines weigh more than 13 pounds.14 The
test was not representative of the typical mine threat.*

(U) The Project Manager stated the acceleration mitigation requirement for all seats is
the same and that the commander’s seat used in the M1151 passed the mine survivability


14
   (U) An approximation based on information obtained from the Technical Cooperation Program’s
Conventional Weapons Technology Group, “Protection of Soft-Skinned Vehicle Occupants from Landmine
Effects, Technical Report,” 2d edition, September 1999.
*
  This paragraph omitted classified information.

                                           SECRET
                                             11
                                            SECRET


requirements established in the 2004 HMMWV Operational Requirements Document in a
test on the M1152-model HMMWV.15 However, the mine test conducted under the front
commander’s side wheel did not measure for acceleration injuries.

(U) On June 17, 2009, the audit team inspected M1114-, M1151-, and XM1166-model
HMMWVs at Marine Corps Base Quantico, Virginia. The team observed that the
commander’s seat in the M1151 sits directly over the battery box and does not have an
energy-absorbing support structure under it, as do the other M1151 seats. In contrast, the
team observed that the XM1166 battery box under the commander’s seat was designed
with an integrated energy-absorbing structure that would still allow the vehicle to
maintain the same ground clearance as the M1151.

(U) On August 6, 2009, the audit team also inspected an M1151 at TACOM Life Cycle
Management Command. A representative from the Office of the Product Manager for
Light Tactical Vehicles stated that an acceleration mitigation device was incorporated
into the cushion of the commander’s seat, but it was not visible to the audit team.
Figure 9 shows the commander’s seat of the XM1166 with the integrated
energy-absorbing support. Figure 10 shows the commander’s seat in the M1151 without
an energy-absorbing support structure underneath.

     (U) Figure 9. XM1166 Commander’s Seat With an Energy-Absorbing Support




15
     (U) The M1152-model HMMWV is a two-door version of the M1151.

                                            SECRET
                                              12
                                                SECRET



 (U) Figure 10. M1151 Commander’s Seat Without an Energy-Absorbing Support





(FOUO) The energy-absorbing support structure under the XM1166 commander’s seat
cannot be used in the M1151-model HMMWV. The increased rigidity provided by the
welded seams and thicker floor panel of the XM1166 provide the structural integrity for
the integrated energy-absorbing support structure on the battery box to operate against
acceleration forces from                   The M1151’s riveted cab and thinner floor do
not provide the type of structural integrity required to install the XM1166-type of
integrated energy-absorbing support under the commander’s seat.16*

Fragments (U)
(U) Fragments of widely varying mass, energy, and lethality are generated from mines
and IEDs. Fragments of the casing of a mine or IED are termed primary fragments.
Portions of the vehicle that are broken loose by the blast and propelled with sufficient
velocity to be hazardous are termed secondary fragments. The degree of hazard posed by
a penetrating fragment depends on the location of the impact; any fragment that can
penetrate skin is considered to be a significant hazard.

(S)	 Armor characteristics to protect against vehicle fragmentation include:

     �	 The opaque door armor of both the XM1166 and M1151 defeats

     �	 The XM1166 has a 1-inch-thick aluminum underbody panel, whereas the M1151
        has only a ¼-inch-thick aluminum underbody panel.




16
   (U) The Project Manager noted that the M1151 cab structure provides the rigidity required for all seat
locations for the components and hardware used on the vehicle.
*
  This paragraph omitted For Official Use Only information.
†
  This paragraph omitted classified information.


                                                SECRET
                                                  13
                                              SECRET



     �	 The door windows on the XM1166 are 89 millimeters thick, whereas the windows
        on the M1151 with fragmentation kit 5 are only 73 millimeters thick.
     �	 The semimonocoque cab of the XM1166 needs fewer bolts and rivets to assemble
        the vehicle and therefore, may cause less secondary fragments in the event of a
                               *



Recapitalization of the HMMWV (U)
(U) The Army Deputy Chief of Staff (G-8), in the October 30, 2009, Army Tactical
Wheeled Vehicle Investment Strategy, recommended scheduling the end of the
procurement of legacy light tactical vehicles and switching the procurement focus to
additional Joint Light Tactical Vehicle production;17 modernizing the M1114-, M1151-,
M1152-, M1165-, and M1167-model HMMWVs through recapitalization when feasible;
and using the complete industrial base, including depot repair facilities and the original
equipment manufacturer, for modernization. A representative of the Army Deputy Chief
of Staff (G-8) stated that the XM1166 was not considered in the Army Tactical Wheeled
Vehicle Investment Strategy because the Army Deputy Chief of Staff (G-8) was unaware
of the vehicle’s existence.

Project Manager Actions (U)
(FOUO) The Project Manager had not assessed the feasibility of recapitalizing other
HMMWV models to the XM1166 configuration to gain greater protection against         .
                                                                 18
A representative from Red River Army Depot in Texarkana, Texas, stated that
recapitalizing current HMMWVs to the XM1166 model was an excellent proposition
because the Government owns a level three technical data package for the XM1166.*

Marine Corps Actions (U)
(U) The Marine Corps Systems Command received positive feedback from Marines in
Iraq on the performance of the XM1166. In June 2009, the Marine Corps Systems
Command requested and received the XM1166 technical data package from the Product
Manager for Light Tactical Vehicles. A Marine Corps Systems Command representative
forwarded the XM1166 technical data package to the Albany Maintenance Center, under
the Marine Corps Logistics Command, for a determination of the feasibility of
recapitalizing Marine Corps M1114-and M1151-model HMMWVs to the XM1166
configuration. The Marine Corps Systems Command representative stated that one of the
XM1166 vehicles from Camp Lejeune arrived at the Albany Maintenance Center the
week of June 15, 2009, for the feasibility study. Personnel at the Albany Maintenance
Center determined they could build the XM1166.




*
  This paragraph omitted For Official Use Only information. 

17
   (U) The Product Manager for Light Tactical Wheeled Vehicles, in a November 16, 2009, brief on the 

HMMWV fleet recapitalization program, stated that HMMWV production will end in 2012. 

18
   (U) Red River Army Depot maintains ground combat and tactical systems. 


                                              SECRET
                                                14
                                             SECRET



Conclusion (U)
(FOUO) Our review of available test reports showed indications that the design of the
XM1166 offered advantages over the M1151-model HMMWV.

     �   The XM1166 crew compartment structure, which features welded joints instead
         of the riveted joints of the M1151, helps prevent the vehicle from collapsing
         during                 .*
     �   Compared with the M1151, the XM1166 has a thicker, welded underbody panel,
         which provides the warfighter increased protection from injury caused by
                                                  .*
     �                       19
         Unlike the M1151, the XM1166 has an integrated, energy-absorbing support
         structure on the battery box under the commander’s seat that reduces the effects
                                                                              *
         of gross vehicle acceleration from
     �   Compared with the M1151, the XM1166 has thicker transparent door armor than
         the M1151, a feature that may help prevent injury to vehicle occupants from
               *

     �	 The XM1166 weighs 528 pounds less than the currently fielded M1151 with
        fragmentation kit 5 installed.
     �	 Like the M1151, the XM1166 is built on an ECV chassis.

(FOUO) IEDs are a major cause of death and injury in Iraq and Afghanistan. With the
semimonocoque cab of the XM1166, recapitalized HMMWVs may provide increased
protection from          Accordingly, the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) should direct the continuation of live fire testing on the
XM1166 and on any other HMMWV recapitalization configuration under consideration
to determine the vehicle’s capabilities compared with those of the M1151 with
fragmentation kit 5. If the results of the testing support the conclusions of testing already
completed, the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
should determine the feasibility of recapitalizing current HMMWV variants to
incorporate the semimonocoque design of the XM1166. By not pursuing the potential
advantages of the XM1166 design, the Project Manager is missing an opportunity to
potentially enhance capabilities of the HMMWV family of vehicles. In addition, as
discussed in the Background, the HMMWV has been reclassified as an ACAT IC
program and meets the definition of a covered system for live fire testing. Accordingly,
the Director, Operational Test and Evaluation, now has acknowledged, in response to the
draft report, responsibility for overseeing the conduct of live fire testing for all HMMWV
configurations that the Army is considering for its HMMWV recapitalization program.*




*
 This paragraph omitted For Official Use Only information.
19
  (S) As noted earlier the report, the Product Manager for Light Tactical Vehicles stated that the
commander’s seat cushion in the M1151 contains a rubber acceleration mitigation device. However, an
Army Test and Evaluation Command test report                             .*

                                             SECRET
                                               15
                                                   SECRET



Management Comments on the Finding, and Our
Response (U)
(U) A summary of management comments on the finding and our response are in
Appendix D.

Recommendations, Management Comments, and Our
Response (U)
Revised Recommendations (U)
(FOUO) The HMMWV program has crossed the threshold for an ACAT I program and
meets the definition of a covered system for live fire testing. The HMMWV
recapitalization program provides the opportunity to
       . Accordingly, we revised Recommendation A.1.a to conduct live fire tests on all
recapitalized HMMWV configurations in accordance with the M1151 test plan to ensure
that the test results of the recapitalized HMMWV configurations and the M1151 are
comparable. We also revised Recommendation A.2 to ensure that all recapitalized
HMMWV configurations are on the Office of the Secretary of Defense Test and
Evaluation Oversight List for live fire test and evaluation oversight.*

(U) A.1. We recommend that the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) direct the Program Executive Officer for Combat
Support and Combat Service Support to:

           (U) a. Continue live fire tests on the XM1166 and on any other High
           Mobility Multi-Purpose Wheeled Vehicle recapitalization configurations
           under consideration in accordance with the M1151 test plan to ensure the
           test results of the recapitalized High Mobility Multi-Purpose Wheeled
           Vehicle and M1151 are comparable.

           (FOUO) b. Determine the feasibility of recapitalizing High Mobility
           Multi-Purpose Wheeled Vehicles currently in use to the XM1166, or similar,
           configuration to gain greater protection for soldiers against
                                               *



           (FOUO) c. If it is determined feasible, recapitalize current High Mobility
           Multi-Purpose Wheeled Vehicles to the XM1166, or similar, configuration to
           gain greater protection for soldiers against
                    *




*
    This paragraph omitted For Official Use Only information.

                                                   SECRET
                                                     16
                                                SECRET



Department of the Army Comments (U)
(U) The Deputy for Acquisition and Systems Management, Office of the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) disagreed with the
recommendations. He stated that the HMMWV has completed DOD live fire test
requirements in accordance with the Office of the Secretary of Defense’s Live Fire Test
and Evaluation. He also stated that the Army has not laid out a requirement that would
establish a need to recapitalize the HMMWV fleet to the XM1166 or a similar capability.
Further, he stated that HMMWVs are not being recapped to defeat threats identified in
Iraq and Afghanistan and that the XM1166 does not meet the September 2004 HMMWV
operational requirements.

Our Response (U)
(U) The Army comments were not responsive. The Deputy for Acquisition and Systems
Management’s statement that the HMMWV has completed live fire test requirements did
not acknowledge that the XM1166, unlike the M1151-model HMMWV configuration,
has a welded cab. Accordingly, the Army cannot use live fire tests completed on the
riveted M1151 with fragmentation kit 5 to evaluate of the survivability of the solid
welded structure of the XM1166. To ensure that the DOD provides the warfighter with
the most survivable HMMWV, the Army needs to complete live fire tests on the
XM1166 and on any other HMMWV recapitalization configurations under consideration
in accordance with the M1151 test plan to ensure that the test results of the recapitalized
HMMWV design and the M1151 with fragmentation kit 5 are comparable, even though
the M1151 test plan does not represent the realistic landmine threat.20 Completing this
testing will allow decisionmakers to determine the best, most survivable HMMWV
configuration for recapitalization.

(FOUO) Although the Deputy for Acquisition and Systems Management asserted that
HMMWVs are not being recapitalized to defeat threats identified in Iraq and
Afghanistan, the Product Manager for Light Tactical Wheeled Vehicles, in a
November 16, 2009, brief on the HMMWV fleet recapitalization program, stated that the
Project Manager is currently exploring HMMWV recapitalization solutions to improve
survivability and automotive performance and to reduce operation and sustainment costs.
The brief stated that the crew compartment of the HMMWV must be a solid structure and
that an “armored beer can” does not have the strength or structure to withstand blast and
fragment loads. The brief identified the need to recapitalize the HMMWV fleet to
                                                    The Product Manager is considering
these improvements in response to the              to HMMWVs identified during
Operations Iraqi Freedom and Enduring Freedom.* However, the XM1166, which has a




20
     (U) We plan to evaluate the adequacy and oversight of HMMWV live fire testing in a second report.
*
    This paragraph omitted For Official Use Only information.

                                                SECRET
                                                  17
                                                SECRET


welded cab structure as opposed to the riveted structure of the M1151, was inexplicably
ignored in the brief as a HMMWV configuration under consideration for the HMMWV
fleet recapitalization program.*

(FOUO) We agree with the Deputy for Acquisition and Systems Management’s
statement that the XM1166, configured with doors that provide a fragmentation
kit 5-level of protection, does not meet the requirements in the September 2004
HMMWV Operational Requirements Document, but neither does the M1151 with
fragmentation kit 5. Further, the Army spent about $58 million on the development and
testing of the ECV2 and planned to spend an additional $3.84 billion on the acquisition of
the ECV2, which also would not have met the requirements in the September 2004
HMMWV Operational Requirements Document. In reference to the November 16, 2009,
brief on the HMMWV fleet recapitalization program, the Product Manager stated that
some requirements in the September 2004 HMMWV Operational Requirements
Document would not be met because of                                  The brief states that
                                                                          . As evidenced
in the finding, the XM1166 provides enhanced survivability against
compared with the M1151 with fragmentation kit 5 and therefore should not be ignored
but considered as a candidate for the planned HMMWV recapitalization program as
recommended.*

(FOUO) IEDs continue to be the number one threat to U.S. troops in Iraq and
Afghanistan. There is widespread consensus that this threat will not go away and that
IEDs will continue to be a weapon of strategic influence in future conflicts. DOD clearly
has a need for improved protection against IEDs based on the recent requirements for the
Mine Resistant Ambush Protected Vehicle, the Mine Resistant Ambush Protected-All
Terrain Vehicle (M-ATV), and the JLTV. However, in today’s fiscal environment, DOD
may not be able to afford to replace all HMMWVs with these improved vehicles. The
Army needs to prepare for the possibility that HMMWVs will be a part of the light
tactical wheeled vehicle fleet for the next 20 to 30 years. The HMMWV recapitalization
program provides the opportunity to                                           . Based on
the design features of the XM1166, it should be provided due consideration to meet
HMMWV recapitalization requirements in an effort to provide enhanced protection to
users in Southwest Asia.*

(U) Accordingly, we request that the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology), reconsider the position taken by the Deputy for Acquisition
and Systems Management and respond to Recommendations A.1.a, A.1.b, and A.1.c in
response to the final report.




*
    This paragraph omitted For Official Use Only information.

                                                SECRET
                                                  18
                                        SECRET



Director, Operational Test and Evaluation, Comments (U) 

(U) Although not required to comment, the Director, Operational Test and Evaluation,
stated that he will require adequate live fire and operational tests to determine the
effectiveness, suitability, and survivability of the XM1166 in the event the Army decides
to recapitalize the current HMMWV fleet. He also stated that this potential XM1166 test
program would verify our assumption that the semimonocoque hull provides increased
crew protection compared with the M1151-model HMMWV. Finally, the Director stated
that it was not apparent from his review of the XM1166 data that the semimonocoque
hull alone provides increased crew protection.

Our Response (U)
(U) We believe the Director misinterpreted the description of the configuration of the
XM1166 when he stated that is was not apparent that the XM1166’s semimonocoque hull
alone provides increased crew protection. As stated in the finding, the XM1166
incorporates several design features in addition to the semimonocoque hull that work
together as a system to increase crew survivability: a thicker, welded underbody panel; an
integrated energy-absorbing support structure underneath the commander’s seat; and
thicker transparent door armor. Our review of the XM1166 test data shows the potential
advantages of the vehicle’s design over that of the currently fielded M1151-model
HMMWV with fragmentation kit 5.

(U) A.2. We recommend that the Director, Operational Test and Evaluation, add
all recapitalized High Mobility Multi-Purpose Wheeled Vehicle configurations to
the Office of the Secretary of Defense Test and Evaluation Oversight List for live
fire test and evaluation oversight.

Director, Operational Test and Evaluation, Comments (U)
(U) The Director, Operational Test and Evaluation, agreed with the recommendation,
stating that because the HMMWV Armor program, which includes the XM1166, has
been on the Office of the Secretary of Defense Test and Evaluation Oversight List for
live fire test and evaluation since 2006, adding the XM1166 as a separate program on the
Test and Evaluation Oversight List was unnecessary.

Department of the Army Comments (U)
(U) Although not required to comment, the Deputy for Acquisition and Systems
Management, Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) stated that the HMMWV is already on the Test and Evaluation Oversight
List.

Our Response (U)
(U) The comments of the Director, Operational Test and Evaluation, were responsive
and met the intent of the recommendation. The Army Test and Evaluation Command
began live fire testing on the XM1166 in December 2005, before the HMMWV Armor
Program’s addition to the Office of the Secretary of Defense Test and Evaluation

                                        SECRET
                                          19
                                       SECRET


Oversight List for live fire test and evaluation. While the Deputy’s comment on the
HMMWV Program is accurate, we wanted to ensure that his office was aware of the
vehicle’s existence and the requirement for the Army to conduct live fire testing on
HMMWV configurations under consideration for the HMMWV recapitalization program.

(U) To ensure DOD provides the warfighter with the most survivable HMMWV, the
Army needs to continue live fire tests on the XM1166 and on any other HMMWV
recapitalization configurations under consideration in accordance with the M1151 test
plan to ensure the test results of the recapitalized HMMWV design and the M1151 with
fragmentation kit 5 are comparable. This testing will allow decisionmakers to determine
the best, most survivable HMMWV configuration for recapitalization.




                                       SECRET
                                         20
                                        SECRET




B. Army Management of the Next Generation
Expanded Capacity Vehicle Acquisition (U)
(U) The Project Manager for Tactical Vehicles (Project Manager) planned to acquire the
Next Generation Expanded Capacity Vehicle (ECV2) to replace some of the current
Expanded Capacity Vehicle (ECV)-model HMMWVs without first:

   �	 establishing the ECV2 Program as a new start acquisition program,
   �	 planning to conduct full and open competition, or
   �	 determining through the Joint Capabilities Integration and Development System
      process whether the ECV2 Program will provide capabilities offered by other
      current and projected tactical wheeled vehicles.

(U) The Project Manager bypassed acquisition requirements in the DOD 5000 series of
directives and the Federal Acquisition Regulation (FAR) because he did not consider
AM General’s unsolicited ECV2 proposal as a new acquisition program but as a part of a
$10.1 billion proposed sole-source production contract for the ECV-model HMMWV.
As a result, the Project Manager did not plan to afford the Under Secretary of Defense for
Acquisition, Technology, and Logistics the opportunity or information to make an
informed decision on the need to procure 11,500 ECV2s for $3.84 billion. The ECV2
would duplicate the capabilities of, or not be as capable as, other tactical vehicles being
acquired, such as the Mine Resistant Ambush Protected-All-Terrain Vehicle (M-ATV)
and the Joint Light Tactical Vehicle (JLTV). Also, the ECV2 would have the same
survivability limitations as the HMMWVs, including a flat bottom and multipiece cab,
which do not provide warfighters with optimal protection against the current landmine
and IED threat.

(U) After our discussions with all levels of Army acquisition management, the Project
Manager deferred the acquisition of the ECV2 in May 2009, and put the $3.84 billion in
funding to better use for FY 2010 through FY 2013.

Regulations and Instructions Regarding Acquisition (U)
(U) The Chairman of the Joint Chiefs of Staff has issued guidance regarding the Joint
Capabilities Integration and Development System. Also, DOD and the Army have issued
guidance regarding the treatment of system modifications and upgrades as acquisition
programs. Further, the FAR contains requirements for obtaining full and open
competition in Defense procurements.

Chairman of the Joint Chiefs of Staff Instruction (U)
(U) Chairman of the Joint Chiefs of Staff Instruction 3170.01G, “Joint Capabilities
Integration and Development System,” March 1, 2009, states that the Joint Capabilities
Integration and Development System was created to support the statutory requirements of


                                        SECRET
                                          21
                                               SECRET


the Joint Requirements Oversight Council to validate and prioritize joint warfighting
requirements. The primary objective of the process is to ensure warfighters receive the
capabilities required to successfully execute the missions assigned to them.21

Department of Defense Instruction (U)
(U) DOD Instruction 5000.02, “Operation of the Defense Acquisition System,”
December 2, 2008, states that block upgrades, planned product improvements, and
similar efforts that provide a significant increase in operational capability and meet an
acquisition category program threshold should be managed as separate increments. The
Instruction requires each increment in an acquisition to be initiated at Milestone B,22 the
engineering and manufacturing development milestone decision, and the milestone
decision to be supported by acquisition documentation, such as an acquisition program
baseline and an acquisition strategy.23

Army Regulation and Pamphlet (U)
(U) Army Regulation 70-1, “Army Acquisition Policy,” December 31, 2003, identifies
core management issues that must be addressed before making program decisions. These
include determining what the program costs, whether a program is affordable, and
whether a program is fully funded.

(U) Department of the Army Pamphlet 73-1, “Test and Evaluation in Support of Systems
Acquisition,” May 30, 2003, states that any modification that is of sufficient cost and
complexity to qualify as a major Defense acquisition program (ACAT I) will be
considered for management purposes as a separate acquisition effort.

Federal Acquisition Regulation (U)
(U) The FAR requires agencies to perform acquisition planning and conduct market
research to promote full and open competition. Acquisition planning should take place
well in advance of the fiscal year in which the contract award is necessary. If an agency
decides not to pursue full and open competition, agency officials must cite and justify one
of the exceptions to full and open competition provided by the FAR. See Appendix B for
a list of the competitive procedures available for use in fulfilling the requirement for full
and open competition.




21
   (U) These requirements were also contained in Chairman of the Joint Chiefs of Staff 

Instruction 3170.01F which is the previous version of this instruction. 

22
   (U) Each increment should have its own Milestone B unless the milestone decision authority decides the

increment will be initiated at Milestone C. 

23
   (U) These requirements were also contained in the May 12, 2003, version of DOD Instruction 5000.2. 


                                               SECRET
                                                 22
                                       SECRET



Development and Planned Acquisition of the Next
Generation Expanded Capacity Vehicle (U)
(U) AM General began developing the ECV2 in March 2005. AM General first publicly
displayed the ECV2 at an Association of the United States Army exposition in early
2006. AM General developed the ECV2 while working to improve ECV-model
HMMWV subcomponents including the frame, suspension, brakes, and cooling system
because of the degradation in performance from the weight of add-on armor. Many of
those improvements were included in the upgrade to the ECV-model HMMWV called
the Reliability Enhanced Vehicle, which the Army began procuring in April 2008.
AM General designed the ECV2 to make further upgrades to the Reliability Enhanced
Vehicle, such as reinforcing the body of the vehicle, raising the roof, lengthening the
vehicle compartment for more passenger leg room, and leveling the floor for easier
egress. The AM General design of the ECV2 provided occupant protection equivalent to
that offered by the currently fielded M1151A1-model HMMWV with fragmentation kit 5
installed. However, warfighters determined that this level of protection was inadequate
during Operations Iraqi Freedom and Enduring Freedom, leading them to request Mine
Resistant Ambush Protected-type vehicles.

Acquisition Plan (U)
(U) The Program Executive Officer for Combat Support and Combat Service Support
(Program Executive Officer) approved the HMMWV Acquisition Plan on September 9,
2008. The Acquisition Plan included the Army’s proposed approach for the procurement
of both the ECV-model HMMWV and the ECV2. The Program Executive Officer
anticipated making an initial contract award for ECV models in May 2009 and using a
contract modification to begin ECV2 production in June 2009. The Acquisition Plan also
stated that the ECV2 was the final evolution of the HMMWV and restored an appropriate
balance among payload, protection, and performance. The Acquisition Plan did not state
how many ECV2s the Army intended to procure.

Development Cost and Funding (U)
(U) Representatives from AM General advised the audit team that they took the initiative
to develop the ECV2 as a long-term solution to the problem of HMMWVs being
overloaded with armor in Iraq and Afghanistan. Through April 2009, a representative
from AM General stated that the company spent approximately $75 million developing
the ECV2. The representative estimated that the total development cost would be
approximately $100 million. A significant portion of the ECV2 development cost was
funded through indirect costs for which AM General was reimbursed on Army contracts.
Specifically, in February 2007, a Defense Contract Audit Agency report on
AM General’s FY 2007 independent research and development (IR&D) expenditures,
part of the company’s general and administrative expenses rate billed to the Government,
showed significant spending for the ECV2 and JLTV Programs. The ECV2 and JLTV
Programs accounted for $47 million or 67 percent of AM General’s total IR&D costs to
the Government. According to the Defense Contract Audit Agency report, AM General
is authorized to amortize general and administrative expenses across its customers’

                                       SECRET
                                         23
                                              SECRET


contracts. The U.S. Government is the primary AM General customer, procuring about
97 percent of AM General’s vehicles. Army budget documents for FY 2010 submitted in
May 2009 included no funding for the ECV2 Program.24

Defense Acquisition System Requirements (U)
(U) The HMMWV draft Justification Review Document for Other than Full and Open
Competition stated that the Army planned to procure 11,500 ECV2s. According to the
2008 HMMWV Life Cycle Cost Estimate, the Army planned to spend about $3.84 billion
on the ECV2 procurement, or about $334,000 per vehicle, which exceeds the dollar
threshold for an ACAT I program.25 Army Pamphlet 73-1 requires that any modification
of sufficient cost and complexity to qualify as an ACAT I program be considered for
management purposes as a separate acquisition effort. Accordingly, the Project Manager
should have established and planned to manage the ECV2 Program as a separate
acquisition effort and not as a part of the existing ECV-model HMMWV Program. By
not managing it as a separate acquisition effort, the Project Manager did not give the
Under Secretary of Defense for Acquisition, Technology, and Logistics the full
knowledge and appropriate oversight of the ECV2 Program. During the audit, on
March 9, 2009, the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) issued an acquisition decision memorandum that required the Project
Manager and the Program Executive Officer to submit a formal request to the Under
Secretary of Defense for Acquisition, Technology, and Logistics for the appropriate
ACAT designation for the ECV2 family of vehicles.

(U) The Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics uses program documentation required for an ACAT I program for performing
program oversight and as an internal control tool to ensure that approved capability needs
are translated into well-managed acquisition programs. Appendix C shows where the
Project Manager did not meet the intent of acquisition requirements in DOD acquisition
regulations when planning the ECV2 procurement.

Federal Business Opportunities Notice (U)
(U) The TACOM Life Cycle Management Command representatives, in their draft
Justification Review Document for Other than Full and Open Competition for HMMWV
Production, stated that the ECV2 test vehicle procurement, as well as its associated test
support contract, were synopsized on the Federal Business Opportunities Web site in
September 2007. 26 The Federal Business Opportunities Notice stated that the


24
   (U) Army budget documents for FY 2009 submitted in February 2008 stated that the Army planned to
procure a mixture of ECV2 variants in FY 2009 but did not state the quantity.
25
   (U) DOD Instruction 5000.02 states that the dollar threshold for an ACAT I program is $2.19 billion in
FY 2000 constant dollars. Projected procurement costs for the ECV2 in FY 2000 constant dollars are about
$3.26 billion.
26
   (U) Although the draft Justification Review Document states that the notice was posted in November
2007, it was initially posted in September 2007 and was then updated in November to increase the number
of test vehicles to be purchased.

                                              SECRET
                                                24
                                            SECRET


Government intended to complete the ECV2 procurement through other than full and
open competition and allowed firms to make their interest and ability to respond to the
effort known. However, the Notice did not mention the Project Manager’s plan to
purchase thousands of ECV2s. It merely mentioned the Project Manager’s intent to
procure 15 test vehicles from AM General and, if test results were successful, to procure
future production vehicles on a sole-source basis.

Competition (U)
(U) The draft Justification Review Document for Other than Full and Open Competition
stated that AM General was:

               the only known, responsible source possessing the requisite knowledge,
               facilities, tooling and expertise to manufacture the HMMWV for this
               additional requirement quantity within the timeframe that meets
               customers’ needs.

(U) In January 2009, the Office of the Deputy Assistant Secretary of the Army
(Procurement and Policy) returned the draft Justification Review Document to the
TACOM Life Cycle Management Command representatives and directed that two
separate Justification Review Documents be completed: one document to justify the
sole-source ECV-model procurement and a second document to justify the sole-source
ECV2 procurement. A representative from the Office of the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology) stated that the draft Justification Review
Document was returned because the Office of the Assistant Secretary questioned the size
of the proposed ECV-model procurement because the HMMWV program was scheduled
to end in 2012. In addition, the representative stated that he did not believe there was
support for a sole-source procurement of ECV2s because of part differences between the
ECV-model HMMWV and the ECV2. The TACOM Life Cycle Management Command
representatives did not submit the two separate justifications to the Office of the Deputy
Assistant Secretary of the Army (Procurement and Policy) for review before the planned
procurement was stopped.

(U) Obtaining full and open competition in contracting is a major tenet of the FAR.
Specifically, the FAR states that all agencies should perform acquisition planning and
conduct market research for all acquisitions to promote and provide for full and open
competition. The FAR lists several competitive procedures that are available for use in
fulfilling the requirement for full and open competition, and none of those procedures
were used by the Project Manager in his efforts to procure the ECV2.

(U) The JLTV is being developed by the Army and the Marine Corps as the future light
tactical vehicle to replace a portion of the HMMWV fleet. Fourteen manufacturers have
expressed interest in the JLTV Program. Although the JLTV has different requirements
than the ECV2, we have no reason to believe that one or more of those manufacturers




                                            SECRET
                                              25
                                          SECRET


could not produce an ECV2-type vehicle. By not fulfilling mandatory competition
requirements, the Project Manager did not have information necessary to ensure that he
was buying the best vehicle to meet user requirements for the best price.

Vehicle Platform Commonality (U)
(U) Although the Project Manager maintained that the ECV2 was part of the HMMWV
family of vehicles, the ECV2 had less than 30 percent of parts in common with the
ECV-model HMMWV and would be built on a separate production line.27 The
September 2007 Federal Business Opportunities Notice stated that there was no
requirement to use the current ECV chassis or to have the same parts as the current
HMMWV models. Based on those facts, we question how the Project Manager could
consider the ECV2 part of the HMMWV family of vehicles. If in the future the ECV2 is
procured, the Project Manager should pursue the ECV2 as a new start acquisition
program and submit acquisition documentation to designated acquisition officials as
mandated by DOD and Army regulations.

Other Tactical Wheeled Vehicle Solutions (U)
(U) Army and Marine Corps officials are currently pursuing multiple options to help
mitigate the mine and IED problem in Iraq and Afghanistan, including procuring the
M-ATV and developing the JLTV.

(U) A representative from the Joint Staff (J-8) stated that combatant commanders are
dissatisfied with the force protection provided by the HMMWV variants in theater.
Consequently, combatant commanders have submitted formal requests for more capable
and better protected vehicles. The representative also stated that the combatant
commanders’ request for the M-ATV included protection requirements over and above
those provided by the ECV2.

(U) In addition, Army and Marine Corps officials are jointly developing the JLTV as the
successor to the HMMWV. The JLTV is currently intended to replace a large portion of
the HMMWV fleet. The Army and Marine Corps plan to schedule an engineering and
manufacturing development milestone decision for the JLTV Program in FY 2011 and to
issue the production contract in FY 2013. Accordingly, in response to combatant
commanders’ requests for vehicles with a higher level of protection, the Department is
planning to procure the M-ATV and the JLTV.

Tactical Wheeled Vehicle Strategy (U)
(U) On October 30, 2009, the Army Deputy Chief of Staff (G-8) approved the Army
Tactical Wheeled Vehicle Investment Strategy. The Strategy is designed to provide
specific fleet investment guidance and serve as the basis for procurement and sustainment


27
 (U) Although the ECV2 and ECV-model HMMWV would be built on separate production lines, they
would share some parts of the line.

                                          SECRET
                                            26
                                                SECRET


processes. It is the document on which all fleet investment, integration, and management
decisions will be based unless superseded by updates from the Department of the Army.
With regard to the ECV2, the Strategy specifically states that:

                   the Army will not procure the ECV2 because current analysis of the
                   vehicle offered by AM General shows that the vehicle will have
                   inadequate underbody IED protection and only 30 percent commonality
                   with the current HMMWV fleet.

(U) In addition, a representative from the Office of the Army Deputy Chief of Staff
(G-8) stated that the Office of the Army Deputy Chief of Staff (G-3/5/7) is in the process
of finalizing a joint Army and Marine Corps tactical wheeled vehicle strategy that will be
the guiding document for all tactical wheeled vehicle strategies and plans.

(U) As previously discussed, the Program Executive Officer anticipated using a contract
modification to begin ECV2 production in June 2009, 4 months before the approval of
G-8’s Tactical Wheeled Vehicle Investment Strategy and before a joint Army and Marine
Corps strategy was complete. Accordingly, the Program Executive Officer should not
have been planning to conduct the ECV2 procurement before obtaining a complete,
definitive plan outlining how all light tactical vehicles combine into an efficient fleet mix
for the DOD and how the ECV2 would contribute to that mix, given that it was not as
capable as other vehicles being acquired. Similarly, the Army needs to complete the
Joint Capabilities Integration and Development System process before making decisions
to acquire future light tactical vehicles.

Management Actions (U)
(U) During the audit, the Project Manager decided to bring the ECV2 Program to a
“logical conclusion” because the Office of the Army Deputy Chief of Staff (G-8) decided
not to invest in the ECV2. According to a representative from the Office of the Project
Manager for Tactical Vehicles, bringing the ECV2 Program to a “logical conclusion”
means tying up loose ends to ensure that as little testing effort as possible is wasted, and
that the ECV2 Program can be efficiently restarted if necessary. By not procuring the
ECV2, the Army can put $3.84 billion in Other Procurement, Army funding to better use
in FY 2010 through FY 2013. According to the Program Executive Office for Combat
Support and Combat Service Support, those funds will remain in the HMMWV budget
line.

(FOUO) Despite the Project Manager’s assertions that the ECV2 Program had ended, the
Product Manager for Light Tactical Vehicles, in a briefing dated November 17, 2009,
stated that he was considering
                                             *
                                               This action seems to be in direct conflict




*
    This paragraph omitted For Official Use Only information.

                                                SECRET
                                                  27
                                       SECRET


with the recommendation by the Army Deputy Chief of Staff (G-8) to not procure the
ECV2 and the finding evidence that the ECV2 is not as capable as other vehicles being
acquired.

Conclusion (U)
(U) The Project Manager planned to acquire 11,500 ECV2s at an estimated cost of
$3.84 billion without first establishing the ECV2 Program as a new start acquisition
program, planning to conduct full and open competition, or determining through the Joint
Capabilities Integration and Development System process whether other current and
planned light tactical wheeled vehicles provide capabilities planned for the ECV2
Program. In doing so, the Project Manager risked procuring a vehicle that duplicated
existing capabilities and had vulnerabilities that vehicles such as the M-ATV are being
procured to mitigate.

(U) After our discussions with all levels of Army acquisition management, the Project
Manager deferred the acquisition of the ECV2 in May 2009 and put the funding to better
use. The Project Manager should not restart the ECV2 Program until the Joint
Capabilities Integration and Development System process is completed, including an
analysis of ECV2 capabilities compared with those of other tactical wheeled vehicles. If
the Joint Capabilities Integration and Development System process determines that
acquisition of the ECV2 is justified, the Project Manager needs to comply with full and
open competition requirements. Further, the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) would have to designate the ECV2 as a new
start acquisition program and assign the appropriate acquisition category related to the
funding thresholds for the planned program.

Management Comments on the Finding, and Our
Response (U)
(U) A summary of management comments on the finding and our response are in
Appendix D.

Recommendations, Management Comments, and Our
Response (U)
(U) B.1. We recommend that the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology), in coordination with the Commanding General,
U.S. Army Training and Doctrine Command, perform an analysis of the capabilities
of the High Mobility Multi-Purpose Wheeled Vehicle, Next Generation Expanded
Capacity Vehicle, Mine Resistant Ambush Protected Vehicle, Mine Resistant
Ambush Protected-All-Terrain Vehicle, and Joint Light Tactical Vehicle as part of
the Joint Capabilities Integration and Development System process to determine the
need for the Next Generation Expanded Capacity Vehicle before authorizing any
future funding for the development, testing, and acquisition of Next Generation
Expanded Capacity Vehicles.


                                       SECRET
                                         28
                                         SECRET



Department of the Army Comments (U)
(U) The Deputy for Acquisition and Systems Management, Office of the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) disagreed because the
Army has decided to take no further action on the ECV2. He stated, that should the
Army revisit the ECV2, the recommendation will be taken under consideration in the
acquisition planning.

(U) The Commanding General, U.S. Army Training and Doctrine Command, agreed but
requested that the recommendation be revised to state that the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology), in coordination with the Commanding
General, U.S. Army Training and Doctrine Command, should continue to develop
requirements for the next generation of light tactical vehicles using the Joint Capabilities
Integration and Development System process. The Commanding General explained that
the U.S. Army Training and Doctrine Command does not determine needs. Needs are
defined in the Initial Capabilities Document and in the Capability Development
Document, which are approved by the Requirements Oversight Councils. Finally, the
Commanding General stated that the JLTV program is a direct result of the Joint
Capabilities Integration and Development System process and that an analysis of
alternatives for the JLTV program is ongoing in support of an engineering and
manufacturing development milestone decision planned for fourth quarter FY 2011.

Our Response (U)
(U) Although the Deputy for Acquisition and Systems Management disagreed with the
recommendation, his response met the intent of the recommendation because the
recommendation will be taken under consideration in acquisition planning should the
Army revisit the ECV2 in the future. If the Army does revisit the ECV2 in the future, it
is critical that the Army conduct an analysis of the capabilities of current and future
tactical wheeled vehicles before investing any future funding in an ECV2-type vehicle.

(U) Although the Commanding General’s comments were responsive, we did not make
his suggested revision to the recommendation. For the ECV2 Program, the Project
Manager planned to procure 11,500 ECV2s at an estimated cost of $3.84 billion without
the approval of the Joint Requirements Oversight Council. Implementing the
recommendation as written will ensure that the Joint Capabilities Integration and
Development System weighs the relative capabilities of all these tactical wheeled
vehicles before authorizing acquisition of ECV2s.

(U) B.2. We recommend that the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology):

       (U) a. Designate the Next Generation Expanded Capacity Vehicle Program
       as a new start and, if appropriate, a major Defense acquisition program if
       the analysis completed by the U.S. Army Training and Doctrine Command



                                         SECRET
                                           29
                                         SECRET



       as part of the Joint Capabilities Integration and Development System process
       determines that the acquisition of Next Generation Expanded Capacity
       Vehicles is justified.

       (U) b. Direct the Program Executive Officer for Combat Support and
       Combat Service Support to pursue full and open competition in the
       acquisition of Next Generation Expanded Capacity Vehicles if subsequent
       procurement of such vehicles is justified.

Department of the Army Comments (U)
(U) The Deputy for Acquisition and Systems Management, Office of the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) disagreed, stating that
the Army has decided to take no further action on the ECV2. He stated that, should the
Army revisit the ECV2, the recommendation will be taken under consideration in the
acquisition planning.

Our Response (U)
(U) Although the Deputy for Acquisition and Systems Management disagreed with the
recommendations, his response met their intent as the Army will take the
recommendations under consideration in acquisition planning should it revisit the ECV2.
Should the Army revisit the ECV2 Program in the future, it is essential that the ACAT
level of any future ECV2 procurement be properly identified at the outset to ensure it
moves smoothly through the acquisition process with the appropriate level of oversight.
In addition, it is vitally important that full and open competition be pursued for any future
procurement of ECV2-type vehicles to ensure that the best vehicle will be procured for
the warfighter at the best value to the taxpayer.




                                         SECRET
                                           30
                                        SECRET




Appendix A. Scope and Methodology (U)
(U) We conducted this performance audit from October 2008 through January 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

(U) The objective of the audit was to determine whether the Army effectively managed
efforts to develop, test, and acquire armor solutions for light tactical wheeled vehicles.
To accomplish this objective, we reviewed DOD and Army acquisition processes to
determine whether the Army effectively managed efforts to develop, test, and acquire the
Risk Reduction Vehicle (XM1166) and the Next Generation Expanded Capacity Vehicle
(ECV2). We plan to address the adequacy and oversight of HMMWV live fire testing in
a second report.

(U) We reviewed documentation and information dated from July 1980 through
November 2009. Documents reviewed included the following:

   �	 Joint Mission Element Need Statement for the High Mobility Multi-Purpose
      Wheeled Vehicle, July 8, 1980
   �	 Operational Requirements Document for the High Mobility Multi-Purpose 

      Wheeled Vehicle, September 17, 2004

   �	 Safety Confirmation for the XM1166 High Mobility Multi-Purpose Wheeled
      Vehicle in Support of a Rapid Fielding Initiative, October 11, 2006
   �	 Capabilities and Limitations Report for the XM1166 High Mobility 

      Multi-Purpose Wheeled Vehicle, October 2006 

   �	 Defense Contract Audit Agency Audit Report No. 1621-2007D27000001, 

      February 20, 2007

   �	 Contract No. W56HZV-08-C-0178 with AM General, December 21, 2007
   �	 High Mobility Multi-Purpose Wheeled Vehicle Acquisition Plan, September 9,
      2008
   �	 System Evaluation Plan for the Next Generation Expanded Capacity Vehicle,
      September 2008
   �	 Summary of Data from Validated High Mobility Multi-Purpose Wheeled Vehicle
      Life Cycle Cost Estimate, November 24, 2008
   �	 Draft Test and Evaluation Master Plan for the High Mobility Multi-Purpose
      Wheeled Vehicle: Next Generation Expanded Capacity Vehicle, December 1,
      2008




                                        SECRET
                                          31
                                              SECRET



    �	 Acquisition Decision Memorandum for the High Mobility Multi-Purpose
       Wheeled Vehicle Family of Vehicles and Expanded Capacity Vehicle 2, March 9,
       2009
    �	 Under Secretary of Defense for Acquisition, Technology, and Logistics
       memorandum on the Designation of the High Mobility Multi-Purpose Wheeled
       Vehicle Program an Acquisition Category IC, November 20, 2009

(U) We contacted staff in the Offices of the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Director, Operational Test and Evaluation; the Director,
Program Analysis and Evaluation; the Deputy Chief of Staff of the Army (G-3/5/7); the
Deputy Chief of Staff of the Army (G-8); the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology); Program Executive Officer for Combat
Support and Combat Service Support; Project Manager for Tactical Vehicles; Project
Manager for Joint Combat Support Systems; U.S. Army Training and Doctrine
Command; and Army Test and Evaluation Command to determine why the Army
planned to acquire the ECV2 to replace the current Expanded Capacity Vehicle
(ECV)-model HMMWV without first establishing the program as a new start, planning to
obtain full and open competition, or determining whether other current or projected
tactical wheeled vehicles already provided the capabilities planned for the ECV2
Program.

(U) In addition, we contacted contractor representatives from AM General to discuss
how and why the ECV2 development effort began, the cost of the development, and the
capabilities of the vehicle.

(U) We also contacted the staffs of the Marine Corps Systems Command, Marine Corps
Combat Development Command, Marine Corps Logistics Command, and Red River
Army Depot to determine the feasibility of recapitalizing the current HMMWVs to the
XM1166 configuration. In addition, on June 17, 2009, the audit team inspected M1114-,
M1151-, and XM1166-model HMMWVs at the Marine Corps Base Quantico, Virginia.

(U) We compared the documents reviewed and testimonial evidence given to Federal,
DOD, and Army regulations and guidance regarding acquisition, contracting,
requirements, and testing.

(U) The potential monetary benefits identified in Finding B were calculated using the
estimated purchase price of an ECV21 multiplied by the number of vehicles the Project
Manager for Tactical Vehicles planned to procure.2 The draft Justification Review




1
 (U) The purchase price of an ECV2 in the 2008 HMMWV Life Cycle Cost Estimate is $334,000.
2
 (U) The draft Justification Review Document for Other than Full and Open Competition stated that the
Project Manager Tactical Vehicles planned to procure 11,500 ECV2s.

                                              SECRET
                                                32
                                        SECRET


Document for Other than Full and Open Competition stated that representatives from
TACOM Life Cycle Management Command planned to procure ECV2s from FY 2010 to
FY 2013.

(U) We experienced a delay and resistance in obtaining information on the XM1166
effort that required elevation to higher Army management levels. In May 2009, we asked
the Project Manager for Tactical Vehicles to confirm our understanding of the history of
the XM1166 effort and add any additional information. Three weeks later, the Project
Manager provided a limited response and did not provide any supporting documentation.
Based on the Project Manager’s response, we met with the Military Deputy to the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology) to discuss our
concerns about the overall XM1166 effort. During that meeting, the Deputy Program
Executive Officer for Combat Support and Combat Service Support stated that he did not
believe the audit team had the full story regarding the XM1166. Two and a half weeks
later, the Office of the Project Manager for Tactical Vehicles, under new leadership,
provided a chronology of XM1166 events as well as 58 supporting documents and met
with us for discussions.

Use of Computer-Processed Data (U)
(U) We did not use computer-processed data to perform this audit.

Use of Technical Assistance (U)
(U) The Technical Assessment Directorate, Office of the Deputy Inspector General for
Policy and Oversight, assisted the audit team by comparing the technical advantages of
the XM1166 with those of the M1151-model HMMWV.

Prior Coverage (U)
(U) During the last 5 years, the Government Accountability Office (GAO), the
Department of Defense Inspector General (DOD IG), and the Army Audit Agency have
issued six reports discussing tactical wheeled vehicle strategies, vehicle armoring, and
vehicle survivability. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO (U)
(U) GAO Report No. GAO-06-274, “Defense Logistics: Lack of a Synchronized
Approach between the Marine Corps and Army Affected Timely Production and
Installation of Marine Corps Truck Armor,” June 22, 2006

DOD IG (U)
(U) DOD IG Report No. D2009-046, “Procurement and Delivery of Joint Service Armor
Protected Vehicles,” January 29, 2009



                                        SECRET
                                          33
                                     SECRET


(U) DOD IG Report No. D2009-030, “Marine Corps Implementation of the Urgent
Universal Needs Process for Mine Resistant Ambush Protected Vehicles,” December 8,
2008

(U) DOD IG Report No. D2008-089, “Planning Armor Requirements for the Family of
Medium Tactical Vehicles,” May 9, 2008

(U) DOD IG Report No. D2007-107, “Procurement Policy for Armored Vehicles,”
June 27, 2007

Army (U)
(U) Army Audit Agency Report No. A-2007-0234-ALM, “Tactical Wheeled Vehicle
Strategy, Deputy Chief of Staff G-8 and Program Executive Office Combat Support and
Combat Service Support,” September 26, 2007




                                     SECRET
                                       34
                                                SECRET




Appendix B. Available Competitive
Procedures (U)
(U) Federal Acquisition Regulation Subpart 6.1, “Full and Open Competition,” sets the
policies and procedures that are to be used to promote and provide for full and open
competition. Specifically, the Subpart lists the following competitive procedures that are
available in fulfilling the full and open competition requirement:

    (a)   Sealed bids
    (b)   Competitive proposals*
    (c)   Combination of competitive procedures
    (d)   Other competitive procedures
          (1) Selection of sources for architect-engineer contracts in accordance with the
          provisions of 40 United States Code 1102 is a competitive procedure.
          (2) Competitive selection of basic and applied research and that part of
          development not related to the development of a specific system or hardware
          procurement is a competitive procedure if award results from:
                  (i) A broad agency announcement that is general in nature identifying
          areas of research interest, including criteria for selecting proposals, and soliciting
          the participation of all offerors capable of satisfying the Government’s needs; and
                  (ii) A peer or scientific review.
          (3) Use of multiple award schedules issued under the procedures established by
          the Administrator of General Services consistent with the requirement of
          41 United States Code 259(b)(3)(A) for the multiple award schedule program of
          the General Services Administration is a competitive procedure.




*
 (U) If sealed bids are not appropriate, contracting officers shall request competitive proposals or use the
other competitive procedures listed in sections (c) and (d).

                                                SECRET
                                                  35
                                         SECRET



Appendix C. Acquisition of the Next
Generation Expanded Capacity Vehicle (U)
(U) The following chart illustrates how the Project Manager for Tactical Vehicles
planned to procure 11,500 Next Generation Expanded Capacity Vehicles (ECV2s) for an
estimated $3.84 billion. The chart focuses on six key areas of the proposed acquisition:
requirements, funding, oversight, acquisition strategy, testing, and life-cycle cost. Those
categories divide the chart vertically into six sections.

(U) The chart is then divided horizontally into three sections. The top section lists the
DOD acquisition requirements that pertain to requirements, funding, oversight,
acquisition strategy, testing, and life-cycle cost and their importance in executing a
successful acquisition program. The middle section of the chart lists the document, type
of funding, or level of oversight used for the ECV2 Program in each of the six areas
mentioned previously. If there is a problem with managing an acquisition program in
that manner, it is signified by a red flag in the bottom section of the chart and followed by
an explanation. The acronyms used on the chart are defined below.

(U) Acronyms
ACAT                           Acquisition Category
ECV                            Expanded Capacity Vehicle
ECV2                           Next Generation Expanded Capacity Vehicle
HMMWV                          High Mobility Multi-Purpose Wheeled Vehicle
IED                            Improvised Explosive Device




                                         SECRET
                                           36
                                                                                                                                                              SECRET

                           Requirements                                            Funding                                          Oversight                                Acquisition Strategy                                     Testing                        Life Cycle Cost

                     Capability Development                                   Full funding for
                                                                             development and                               Acquisition Category I                           Full and open competition                           Approved Testing                  Achieving Affordability
                          Documents
                                                                                production
DoD Acquisition
 Requirements
                    (U) Capability development                         (U) Full funding is defined as the                (U) ACAT I programs are subject                    (U) Full and open competition                 (U) Test plans approved by the        (U) Life-cycle cost estimates are
                    documents are used to support                      inclusion of the dollars and                      to the highest level of oversight                  helps to ensure the Army will                 Office of the Director,               used as a means of determining
                    the initiation of acquisition                      personnel costs needed for all                    of all DOD acquisition programs                    procure the best vehicle for the              Operational Test and Evaluation,      affordability. In addition, the
                    programs, refine the integrated                    current and future efforts to carry               and require the most program                       best price.                                   will allow the Army to conduct a      maintenance program should be
                    architecture, and clarify how the                  out an acquisition. It has been a                 documentation to support their                                                                   formal operational test, which will   designed to minimize total
                    program will lead to a joint                       longstanding DOD policy to seek                   development and production                                                                       determine whether a vehicle           life-cycle cost while achieving
                    warfighting capability. The                        full funding for acquisition                      decisions.                                                                                       meets user requirements.              readiness and sustainability
                    documents also provide the                         programs, and it is a necessary                                                                                                                                                          objectives.
                    detailed operational performance                   condition for program stability.
                    parameters necessary to
                    complete the design of the
                    proposed system.
Program




                                                                         (U) Production funding
                       (U) September 2004                                                                               (U) Acquisition Category III                          (U) September 2008                                 (U) Draft ECV2                     (U) November 2008
 ECV2




                                                                          appropriated for the
                      HMMWV Operational                                                                                                                                     HMMWV Acquisition Plan                             Test and Evaluation                  HMMWV Life Cycle
                                                                              ECV-model
                     Requirements Document                                                                                                                                                                                        Master Plan                          Cost Estimate
                                                                           HMMWV program


                         (U) Requirement                            (U) Funding appropriated                               (U) Inadequate level                                                                                                                   (U) More expensive to
                                                                                                                                                                                                                             (U) Unapproved
                        insufficient for the                          to procure one system                                     of oversight                                 (U) No competition                                                                    maintain than current
                                                                                                                                                                                                                                  testing
                           current threat                           is used to develop a new,                                                                                                                                                                        vehicle platform
                           environment                                    different system
                  (U) The survivability requirements                  (U) The Army requested Other                      (U) The Project Manager                            (U) The Project Manager’s                      (U) The Office of the Director,       (U) The ECV2 is 72 percent
                  contained in the HMMWV                              Procurement, Army funding for                     maintained that the ECV2 is part                   acquisition plan was to buy ECV2s              Operational Test and Evaluation,      more expensive to maintain than
                  Operational Requirements Document                   the ECV-model HMMWV                               of the HMMWV family of vehicles                    from AM General citing that AM                 placed the ECV2 on all three of       an ECV-model HMMWV
                  are insufficient for the current threat.            program.                                          and therefore is an ACAT III                       General was the only known and                 its testing oversight lists by        according to the Life Cycle Cost
                  In a related example, the Secretary                                                                   program.                                           responsible source.                            2009.2                                Estimate.
      Issues




                                                                      (U) The Project Manager did not
                  of Defense cancelled the Manned
                                                                      request RDT&E3 funding to
                  Ground Vehicle portion of the Future                                                                                                                                                                    (U) The Office of the Director,       (U) The ECV2 has few parts in
                                                                      develop an ECV2-type vehicle.                     (U) However, procurement of
                  Combat System because it did not                                                                                                                         (U) This strategy did not meet                 Operational Test and Evaluation,      common with the ECV-model
                                                                      Instead, he used production                       ECV2s would cost about
                  incorporate lessons learned in Iraq                                                                                                                      Federal Acquisition Regulation                 did not approve the Test and          HMMWV and therefore will
                                                                      funding authorized for the ECV-                   $3.84 billion and would qualify
                  and Afghanistan with regard to                                                                                                                           competition requirements and did               Evaluation Master Plan, yet the       require a separate logistics
                                                                      model HMMWV to partially fund                     the ECV2 as an ACAT I
                  underbody IEDs.                                                                                                                                          not state how many ECV2s the                   Project Manager allowed testing       chain.
                                                                      the development of the ECV2                       program.1
                                                                                                                                                                           Army planned to procure or how                 to commence.
                                                                      and was planning to use that
                                                                                                                                                                           much they cost.
                                                                      funding to procure ECV2s.
                                                                                                                                                                                                                          (U) Preliminary developmental
                                                                      (U) Because the ECV2 is                                                                                                                             test results showed the ECV2
                                                                      substantially a new vehicle, the                                                                     (U) Numerous other vendors                     was not meeting reliability,
                                                                      Project Manager needed to                                                                            may have been interested in an                 availability, and maintainability
                                                                      request authorization to                                                                             ECV2 procurement had they                      requirements in the HMMWV
                                                                      reprogram the ECV production                                                                         known it was estimated to be a                 Operational Requirements
                                                                      funds, or request a new funding                                                                      multibillion-dollar program.                   Document.
                                                                      line to procure the ECV2.
                  1
                    (U) On November 20, 2009, the Under Secretary of Defense for Acquisition, Technology, and Logistics designated the HMMWV Program an Acquisition Category IC, major Defense acquisition 

                  program. He also required the Assistant Secretary of the Army (Acquisition, Logistics, and Technology) to notify him if the Army plans to procure a new model or variant of the HMMWV.

                  2
                    (U) In June 2008, the Director, Operational Test and Evaluation, added the ECV2 Program to the Office of the Secretary of Defense Test and Evaluation Oversight List for Operational and Live Fire

                  Testing. In January 2009, the Director added the ECV2 to the Oversight List for Developmental Testing.

                  3
                    (U) RDT&E stands for research, development, test, and evaluation. 


                                                                                                                                                             SECRET
                                                                                                                                                               37
                                       SECRET




Appendix D. Management Comments on the
Findings and Our Response (U)
(U) Summaries of the comments from the Deputy for Acquisition and Systems
Management, Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) on the findings follow, along with our responses. The complete text of the
Deputy’s comments can be found in the Management Comments section at the end of the
report.

Comments on the Review of Internal Controls (U)
(U) The Deputy for Acquisition and Systems Management stated that the Next
Generation Expanded Capacity Vehicle (ECV2) Program was based on the validated
2004 High Mobility Multi-Purpose Wheeled Vehicle (HMMWV) operational
requirements document and was coordinated through the milestone decision authority,
indicating an appropriate evolution. He also stated that the Product Manager for Light
Tactical Vehicles, desiring competition for the ECV2 Program, conducted a market
survey to assess whether any other companies could meet the schedule requirements for
ECV2 test assets but found no viable alternatives.

Our Response (U)
(U) As an acquisition category (ACAT) III program, the ECV2 may have been based on
the validated 2004 HMMWV operational requirements document and coordinated
through the Program Executive Officer for Combat Support and Combat Service Support
(Program Executive Officer), the milestone decision authority. However, the Project
Manager for Tactical Vehicles (Project Manager) represented the ECV2 as a HMMWV
variant when it was substantially a new vehicle developed by AM General, and the Army
planned to use current ECV-model HMMWV production funding to procure the ECV2.

(U) As discussed in Finding B, the Army planned to spend about $3.84 billion on the
ECV2 procurement. DOD Instruction 5000.2 states that block upgrades, planned product
improvements, and similar efforts that provide a significant increase in operational
capability and meet an ACAT threshold will be managed as separate increments.
Similarly, Army Pamphlet 73-1 requires that any modification of sufficient cost and
complexity to qualify as an ACAT I, major Defense acquisition program, be considered
for management purposes as a separate acquisition effort. As discussed in Finding B, by
not managing it as a separate acquisition effort, the Project Manager did not give the
Under Secretary of Defense for Acquisition, Technology, and Logistics the full
knowledge or the required oversight of the ECV2 Program. The scope of the ECV2
investment meets the dollar threshold requirement for a major Defense acquisition
program and should have been placed under the oversight of the Under Secretary of
Defense for Acquisition, Technology, and Logistics so that he could decide who should
be the milestone decision authority.



                                       SECRET
                                         39
                                       SECRET


(U) We also do not agree that the September 2007 Federal Business Opportunities
Notice was sufficient to provide for and promote full and open competition for a
$3.84 billion program. The Notice did not mention that the Project Manager for Tactical
Vehicles’ planned to purchase 11,500 ECV2s. It merely mentioned the Project
Manager’s intent to procure 15 test vehicles from AM General and, if test results were
successful, to procure future production vehicles on a sole-source basis. In addition, a
representative from the Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) also stated that in his opinion the Project Manager had not
provided adequate support for the planned sole-source procurement of 11,500 ECV2s.

(U) The draft Justification Review Document for Other than Full and Open Competition
for HMMWV Production, used by TACOM Life Cycle Management Command to
support the sole-source ECV2 procurement, stated that only one responsible source was
available to produce ECV2s and, therefore, the procurement was exempt from full and
open competition. As stated in Finding B, the Joint Light Tactical Vehicle (JLTV) is
being developed by the Army and the Marine Corps as the future light tactical vehicle to
replace a portion of the HMMWV fleet. Fourteen manufacturers have expressed interest
in the JLTV Program. Although the JLTV requirements differ from those for the ECV2,
we have no reason to believe that one or more of those manufacturers could not produce
an ECV2-type vehicle. Accordingly, we still maintain that the procurement of the ECV2
did not qualify for the exemption from full and open competition under the Federal
Acquisition Regulation (FAR). In addition, by not fulfilling competition requirements,
the Project Manager did not have the information necessary to ensure that the Army
would be buying the best vehicle to meet user requirements for the best price.

Comments on Live Fire Test and Evaluation (U)
(U) The Deputy for Acquisition and Systems Management quoted the portion of
Finding A that explained what systems are covered by live fire test and evaluation. He
then stated that the HMMWV is an ACAT III program and that the Army and Defense
Acquisition Executive have full knowledge of it. He also stated that, although
documentation has been submitted requesting that the Project Manager review the ECV2
Program for possible redesignation as an ACAT I program (major Defense acquisition
program), the decision was not made at the time the Army was evaluating the ECV2
Program.

Our Response (U)
(U) In the report, we did not discuss live fire testing in reference to the ECV2 Program.
As to the XM1166, which was funded as part of the HMMWV program, the Army did
not consider it a major Defense acquisition program at the time the Project Manager was
evaluating it. Since then, the Under Secretary of Defense for Acquisition, Technology,
and Logistics has designated the HMMWV a major Defense acquisition program, and the
HMMWV is on the Office of the Secretary of Defense Test and Evaluation Oversight
List for live fire testing. Any further testing done on the XM1166 or on any other
recapitalized HMMWV configuration will be done under the oversight of the Director,
Operational Test and Evaluation.

                                       SECRET
                                         40
                                                SECRET



Comments on Payload Capabilities (U) 

(U) The Deputy for Acquisition and Systems Management stated that the XM1166 does
not carry more payload than the M1151 and that both vehicles are estimated to carry
2,300 pounds of payload.

Our Response (U)
(U) The XM1166 is 528 pounds lighter than a comparably equipped M1151 with
fragmentation kit 5. As a result, the XM1166, which has fragmentation kit 5-level
protection built in, can carry 528 pounds more cargo, protection, or mission equipment.
If no additional cargo, protection, or mission equipment is added, the XM1166 is
528 pounds lighter than the M1151 with fragmentation kit 5, thereby providing better
mobility and improving reliability by reducing stress on the vehicle. A lightweight door
solution was also developed for the XM1166 that reduced the weight of the vehicle by
about 1,500 pounds. To clarify the sentence in Finding A, we revised the statement
regarding the weight of the XM1166 to be clear that the XM1166 is lighter than a
comparably equipped M1151 with fragmentation kit 5.

Comments on Protection Provided by the XM1166 (U)
(FOUO) The Deputy for Acquisition and Systems Management stated that our statement,
“However, the doors in the XM1166 have integrated fragmentation kit 5-level of
protection in addition to the XM1166’s semimonocoque welded cab, which introduces
improved crew survivability against                                            through
significant structural improvements to the crew compartment compared with the
M1151-model HMMWV,” did not appear to be supported in test documentation for test
events against fragmentation kit 5-equipped vehicles. He stated that the Safety
Confirmation for the XM1166 did not contain those words, and it only provided that
assessment against the baseline M1114, not against the M1114- or M1151-model
HMMWVs with fragmentation kits applied.*

Our Response (U)
(FOUO) We agree that the XM1166 Safety Confirmation only provided an assessment
of the capabilities of the XM1166 compared with the baseline HMMWV, not with the
HMMWV with fragmentation kits applied. We also agree that the XM1166 Safety
Confirmation does not use the phrase “improved survivability against              through
structural improvements.” We used the Safety Confirmation in conjunction with other
sources to reach our conclusion. In addition to the Safety Confirmation, we reviewed
other test information and obtained testimony from Army and Joint Improvised Explosive
Device Defeat Organization experts in vehicle survivability to reach our conclusion. Our
conclusion that the XM1166 protects against              was inserted in the report to
show the demonstrated effect of the XM1166 crew compartment improvements can have
on crew survivability.*



*
    This paragraph omitted For Official Use Only information.
                                                SECRET
                                                  41
                                                SECRET


(FOUO) The Product Manager for Light Tactical Wheeled Vehicles stated in the
November 16, 2009, brief on the HMMWV fleet recapitalization program that the crew
compartment of the HMMWV must be
                                                                              The brief
identified the need to recapitalize the HMMWV fleet to increase survivability
                      As discussed in the report, the XM1166 has a welded cab structure,
which helps prevent the vehicle from collapsing during                 as opposed to the
                                 *
riveted structure of the M1151.

Comments on the Feasibility of Recapitalizing Other
HMMWVs to the XM1166 (U)
(FOUO) The Deputy for Acquisition and Systems Management commented on our
statement that the Project Manager did not assess the feasibility of recapitalizing other
HMMWV models to the XM1166 to gain greater protection against                 He stated that
the statement “to gain greater protection against     ” is vague and does not explain how
it is greater. He also stated that the XM1166 provides lower protection against        .*

Our Response (U)
(FOUO) We disagree. Throughout Finding A, we established how the design of the
XM1166 offers advantages over the M1151-model HMMWV with fragmentation kit 5.
Specifically, we stated that the XM1166 has:

      �  a crew compartment structure that features welded joints instead of the riveted
         joints of the M1151 and helps prevent the vehicle from collapsing during
                ;*
      � a thicker, welded underbody panel than the M1151, providing the warfighter
         increased protection from injury caused by 

                     ;*

      � an integrated energy-absorbing support structure on the battery box under the
         commander’s seat that reduces the effects of gross vehicle acceleration from
                                (which the M1151 does not have); and*
      �	 thicker transparent door armor than the M1151, a feature that may help prevent
                                                              *
         injury to vehicle occupants from

(FOUO) We also disagree with the Deputy’s statement that the XM1166 provides lower
protection against        According to our review of available test reports, the XM1166
appears to provide superior       protection over that offered by the M1151 with
fragmentation kit 5. However, a complete comparison of the capabilities of the two
vehicles is impossible until the Army completes equivalent live fire tests on the XM1166
as were performed on the M1151 with fragmentation kit 5.* As stated earlier, the Product
Manager for Light Tactical Wheeled Vehicles, in the November 16, 2009, brief on the



*
    This paragraph omitted For Official Use Only information.
                                                SECRET
                                                  42
                                                SECRET


HMMWV fleet recapitalization program, stated that the crew compartment of the
HMMWV must be                        and that the riveted M1151 does not have the
                                                     In contrast, the XM1166 has a welded
                                                                               *
cab structure to help prevent the vehicle from collapsing during

Comments on the Welded Joints of the XM1166 (U)
(FOUO) Regarding our statements about the welded joints that make up the XM1166’s
crew compartment structure and its ability to help prevent the vehicle from collapsing
during                the Deputy for Acquisition and Systems Management stated that,
although the structures of the XM1166 and M1151 are different, the report did not
provide supporting evidence from modeling or live fire tests for this conclusion. In
addition, the Deputy stated that although the XM1166 does have a thicker underbody and
thicker transparent side armor than the M1151-model HMMWV, there is no supporting
documentation of enhanced protection against a relevant threat and threat positioning.*

Our Response (U)
(FOUO) We stated in the finding that the Army had not completed enough live fire
testing and modeling and simulation on the XM1166 to make a complete performance
comparison between the XM1166 and the M1151. A complete performance comparison
of the two vehicles is impossible until the Army completes equivalent live fire tests on
the XM1166 as were performed on the M1151 with fragmentation kit 5. Because those
tests are incomplete, we relied on the judgment of experts. The Product Manager for
Light Tactical Wheeled Vehicles also acknowledged, in the November 16, 2009, brief on
the HMMWV fleet recapitalization program, that the crew compartment of the HMMWV
must be                   (such as the XM1166) and that an
                                                                               *



(S) Further, we disagree that that there is no supporting documentation of enhanced
protection by the thicker underbody of the XM1166 as compared with the M1151.
Although the XM1166 and M1151 with fragmentation kit 5 were not subjected to all of
the same live fire tests, both vehicles were tested against
                                                          The test reports stated that the
M1151 had                                                                              but the
XM1166 had                               . Although this is just one test, the results
highlight the potential that the XM1166 structural improvements have for crew
survivability.†

(U) We agree with the statement that there is no supporting documentation of enhanced
protection by the thicker transparent armor on the XM1166 because the Army has not
tested the side window glass of the XM1166. Because ballistic tests on the side window
glass of the XM1166 are incomplete, we relied on the judgment of experts in the Army



*
    This paragraph omitted For Official Use Only information.
†
    This paragraph omitted classified information.
                                                SECRET
                                                  43
                                                SECRET


Test and Evaluation Command. A September 2006 Army Test and Evaluation Command
brief on the XM1166 stated that, although testers had not characterized the performance
of the side window glass, they expected good performance because the glass was
relatively thick. Further, we stated in the finding that recent improvements in ballistic
glass allow for equal protection from thinner panes or increased protection from the same
thickness of the glass based on comments made by the Product Manager for Light
Tactical Vehicles.

Comments on XM1166 Test Results (U)
(U) The Deputy for Acquisition and Systems Management stated that appropriate tests
were conducted on the XM1166 as required in support of an Urgent Materiel Release.
Further, he explained that, although the November 2006 Capabilities and Limitations
Report for the XM1166 stated that insufficient assets were provided for ballistics testing
and that additional IED test events were needed to fully characterize the XM1166’s
ballistic survivability, this is common language across many platforms that were
developed as solutions to meet urgent operational needs. He stated that this statement
could be added as a footnote or incorporated in the report.

Our Response (U)
(FOUO) If, as the Deputy asserted, only urgent materiel release-level testing was
completed on the XM1166, the Army still needs to perform full-up system-level live fire
test and evaluation on the XM1166 in accordance with the M1151 test plan. Only then
will the Army will be able to determine the exact capabilities that the welded structure of
the XM1166 offers. Then the Army can decide which HMMWV configuration will best
protect occupants of the HMMWV against                       and proceed with
recapitalization. Accordingly, we did not modify the report as the Deputy requested.*

Comments on Protection Provided by the M1151-Model
HMMWV (U)
(FOUO) The Deputy for Acquisition and Systems Management commented on a
paragraph that detailed the protection provided by the M1151-model HMMWV from
various threats. He stated that, subsequent to vulnerability testing, the Project Manager
upgraded the C-pillar with a 1-inch aluminum plate, and that the modification was cut
into production and retrofit kits were provided to theater. He added that fragmentation
kit 5 was a                                                          He also stated that
fragmentation kit 7, which is currently being fielded,
               *



Our Response (U)
(S) We agree with the Deputy’s comment that the Project Manager upgraded the C-pillar
with a 1-inch aluminum plate. However, as stated in Finding A, the XM1166 crew


*
    This paragraph omitted For Official Use Only information.
                                                SECRET
                                                  44
                                              SECRET


compartment structure has welded joints versus the riveted joints on the M1151. The 

welded joints help prevent the vehicle from collapsing during                  . Although
ballistic testing indicates that fragmentation kit 71 may provide increased protection
against                                            it adds an additional 960 pounds to the
15,400-pound gross vehicle weight of the M1151 with fragmentation kit 5 and the
objective gunner’s protection kit. Accordingly, the fragmentation kit 7 can be installed
only on the M1151 with fragmentation kit 5, not on the M1151 with fragmentation kit 6.*

(FOUO) As stated in Finding A, the XM1166, as opposed to the M1151, has enhanced
survivability characteristics without additional weight. For example, the underbody panel
of the XM1166 is four times thicker than that of the M1151. Fragmentation kit 4, which
would provide                          to the HMMWV, would add an additional
            2
151 pounds to the gross vehicle weight. The Product Manager did not field
fragmentation kit 4 because of weight constraints. In addition, the Product Manager for
Light Tactical Wheeled Vehicles stated in the November 16, 2009, brief on the
HMMWV fleet recapitalization program that the
        does not allow the installation of fragmentation kit 4 to provide
             On the other hand, a modification to the XM1166 made it even lighter. A
lightweight door solution3 was developed for the XM1166 that reduced the weight of the
vehicle by about 1,500 pounds.†

Comments on North Atlantic Treaty Organization
Study (U)
(FOUO) The Deputy for Acquisition and Systems Management stated that although the
Product Manager for Light Tactical Vehicles is aware of the North Atlantic Treaty
Organization study that showed
                                      the comment implies that the enemy in theater has
demonstrated a distinct tendency. Further, the Product Manager is unaware of any
National Ground Intelligence Center assessment that shows the current enemy, with the
exception of snipers, is targeting windows.†

Our Response (U)
(FOUO) We disagree. Our report quotes a Joint Improvised Explosive Device Defeat
Organization assertion that the enemy has
This statement is not implied by our report; it is a Joint Improvised Explosive Device
Defeat Organization assertion. The findings in the North Atlantic Treaty Organization
study reinforce the findings of enemy tendencies contained in the Joint Improvised
Explosive Device Defeat Organization statement.† We did not assert in the report that


1                                                                       *
  (FOUO) Fragmentation kit 7 provides
*
  This paragraph omitted classified and For Official Use Only information. 

2
  (U) The weight of fragmentation kit 4 for the M1151 is an engineering estimate. 

3
  (U) The lightweight door solution developed for the XM1166 does not provide fragmentation kit 5-level 

protection.

†
  This paragraph omitted For Official Use Only information.
                                              SECRET
                                                45
                                           SECRET


National Ground Intelligence Center had evaluated enemy tendencies for shooting at
vehicles in Southwest Asia, and a representative of the National Ground Intelligence
Center confirmed it has not evaluated such tendencies.

Comments on Acceleration Mitigation Requirements (U)
(U) The Deputy for Acquisition and Systems Management stated that there are no
acceleration requirements for all seat positions in the HMMWV, but that there are
requirements for survivability. He explained that there are several ways to mitigate
acceleration forces including controlling the forces at the base of the seat. He added that
the M1151 meets the survivability requirement and that the report incorrectly
concentrates on a specific material used, instead of on the results achieved. Finally, with
respect to the M1152-model HMMWV mine test, he stated that anamorphic dummies
were positioned in two crew locations to measure acceleration forces.

Our Response (U)
(U) We did not state that there were acceleration requirements established for all seat
positions. We quoted the Project Manager, who said: “the acceleration mitigation
requirement for all seats is the same and the commander’s seat used in the M1151 passed
the mine survivability requirements established in the 2004 HMMWV Operational
Requirements Document in a test on the M1152-model HMMWV.”

(S) We further highlighted in Finding A that the Product Manager for Light Tactical
Vehicles stated that the commander’s seat cushion in the M1151 incorporates a rubber
acceleration mitigation device. The Army Test and Evaluation Command found,
however, when conducting tests of a
            M1151 on June 17, 2009, that the commander’s seat
                                         The test


                         However, more than two-thirds of antivehicular landmines
weigh more than 13 pounds.4 The                 test was not representative of the
                             *
majority of the mine threat.

(U) Also, the Deputy’s statement that anamorphic dummies were positioned in the
two crew locations to measure acceleration forces appears to be incorrect. The Army
Test and Evaluation Command provided the audit team with an excerpt from the results
of that M1152-model HMMWV mine test, and it clearly shows that no anamorphic
dummies were instrumented to measure for acceleration injuries. We sent a copy of the




4
  (U) An approximation based on information obtained from the Technical Cooperation Program’s
Conventional Weapons Technology Group, “Protection of Soft-Skinned Vehicle Occupants from Landmine
Effects, Technical Report,” 2d edition, September 1999.
*
  This paragraph omitted classified information.
                                           SECRET
                                             46
                                            SECRET


test results to the Product Manager for Light Tactical Vehicles and inquired why
anamorphic dummies were not instrumented to measure acceleration. We received no
answer.

(U) The Product Manager for Light Tactical Vehicles initiated the XM1166 development
effort because he was concerned that the commander’s seat in the M1151 would not meet
the September 2004 HMMWV operational requirements document’s requirements for
mine protection. With this in mind, the Product Manager should have ensured that the
anamorphic dummies were instrumented to measure for acceleration injuries in the
M1152-model HMMWV as well as in the XM1166 for comparison purposes.

Comments on Recapitalization Strategies (U)
(U) The Deputy for Acquisition and Systems Management commented on our statement
regarding why the XM1166 was not considered in the predecisional Light Tactical
Vehicle Fleet Management and Investment Strategy by the Army Deputy Chief of Staff
(G-8).5 The Deputy stated that the XM1166 was not type classified, did not have a full
materiel release, and did not meet current Army Deputy Chief of Staff
(G-3/5/7)-validated requirements. As a result, the XM1166 was not included in current
authorized Army budget documents and was not included in the Strategy. The Deputy
further stated that Synchronization Staff Officers from the Army Deputy Chief of Staff
(G-8) were aware of the XM1166.

(U) The Deputy also commented on our statement that a representative from Red River
Army Depot in Texarkana, Texas, stated that recapitalizing current HMMWVs to the
XM1166 model was an excellent proposition. The Deputy stated that the Product
Manager was currently recapitalizating the M1097R1-model HMMWV. The Deputy
added that there was no validated requirement for additional HMMWVs in theater
beyond those being upgraded with fragmentation kit 6.

Our Response (U)
(U) The Army Deputy Chief of Staff (G-8), Deputy Division Chief, Focused Logistics
Division, Force Development Directorate, whose Division wrote the Army Tactical
Wheeled Investment Strategy, advised us his division did not include the XM1166 in its
Strategy because staff did not know about the vehicle; we cannot speculate on additional
reasons. Additionally, other vehicles, such as the ECV2, that also do not meet all of the
Deputy’s criteria above were considered in the Army Tactical Wheeled Vehicle
Investment Strategy.6




5
  (U) On October 30, 2009, the Army Deputy Chief of Staff (G-8) approved the Army Tactical Wheeled
Vehicle Investment Strategy.
6
  (U) Although the Army Deputy Chief of Staff (G-8) stated that the Army Tactical Wheeled Vehicle
Investment Strategy, dated October 30, 2009, mentions the ECV2, it recommends that the Army not
procure it because the vehicle will have inadequate underbody IED protection and only 30-percent
commonality of parts with the current HMMWV fleet.
                                            SECRET
                                              47
                                       SECRET


(U) Contrary to the Deputy’s assertion, the Army also plans to recapitalize up-armored
HMMWVs. Specifically, the Product Manager for Light Tactical Wheeled Vehicles, in
the November 16, 2009, brief on the HMMWV fleet recapitalization program, and the
Army Deputy Chief of Staff (G-8) in the Tactical Wheeled Vehicle Investment Strategy,
October 30, 2009, specified that the HMMWV recapitalization program would include
up-armored HMMWVs as well as the M1097.

Comments on the Army Management of the Next
Generation Expanded Capacity Vehicle (U)
(U) The Deputy for Acquisition and Systems Management stated that the assessment of
the ECV2 as a HMMWV variant would provide the Army another capability, but was not
intended to replace all HMMWVs. Further, Headquarters, Department of the Army,
would have to identify how many, if any, ECV2s would be desired, and base that
decision on funding and priorities.

Our Response (U)
(U) We did not state in the report that the Army intended for the ECV2 to replace all
HMMWVs, as the Deputy asserted. There are approximately 150,000 HMMWVs in the
Army inventory, and the Project Manager planned to buy only 11,500 ECV2s.

Comments on the Deferment of the ECV2
Procurement (U)
(U) Regarding the deferment of the acquisition of ECV2s, the Deputy for Acquisition
and Systems Management stated that the decision was independent of our audit. He also
stated he did not believe there is supporting documentation for the ECV2 funding being
put to better use as we stated in the report.

Our Response (U)
(U) We did state that after our discussions with all levels of Army acquisition
management, bringing to light the Project Manager’s plans to award the contract for the
11,500 ECV2s, that the Project Manager deferred acquisition of the ECV2. We firmly
believe that our discussions helped lead to the deferment of the ECV2 acquisition.

(U) Funds set aside to procure the ECV2s will be put to better use because they will not
be used to acquire 11,500 vehicles in a sole-source procurement that would duplicate the
capabilities of or not be as capable as other tactical vehicles being acquired.

(U) The Defense acquisition system is the management process by which DOD provides
effective, affordable, and timely systems to users. It exists to manage the Nation’s
investments in technologies, programs, and product support necessary to achieve the
National Security Strategy and support the warfighter. The primary objective of Defense
acquisition is to acquire quality products that satisfy user needs with measurable
improvements to mission capability and operational support, in a timely manner, and at a
fair and reasonable price. In the planned sole-source procurement of 11,500 ECV2s, the
                                       SECRET
                                         48
                                               SECRET


Army was not going to meet those objectives, especially in times of declining Defense
budgets. Specifically, the Army spent about $58 million7 to promote the sole-source
ECV2 Program when competition should have been pursued. To that extent, the Army
wasted $58 million on the development and testing of the ECV2. In addition, since the
program was incorrectly classified as an ACAT III program, the Program Executive
Officer and the Project Manager may have abused their authority in trying to procure
$3.84 billion worth of ECV2s through a sole-source contract when the decision should
have been that of the Under Secretary of Defense for Acquisition, Technology, and
Logistics. We do not mean to imply that project managers should not have the ability to
explore upgrades to currently fielded systems, or search for better systems to replace
what we already have to provide measurable improvements to mission capability.
However, we do not endorse masking a program the size and complexity of the ECV2 as
an evolutionary upgrade and then spending millions of dollars on its development and
testing when, in fact, it would duplicate the capabilities of or not be as capable as other
tactical vehicles being acquired.

Comments on Defense Acquisition System
Requirements (U)
(U) The Deputy for Acquisition and Systems Management disagreed with our statement
that the Project Manager did not give the Under Secretary of Defense for Acquisition,
Technology, and Logistics the full knowledge and appropriate oversight of the ECV2
Program by not managing it as a separate acquisition effort. He stated that the ECV2
“had Office of the Secretary of Defense visibility” since the HMMWV was included on
the Office of the Secretary of Defense Live Fire Test and Evaluation Oversight List.

Our Response (U)
(U) If the ECV2 procurement had been appropriately managed in accordance with the
DOD 5000 series of regulations and categorized as a new start, major Defense acquisition
program, the Under Secretary of Defense for Acquisition, Technology, and Logistics
would have had the opportunity to determine who would be the milestone decision
authority. The milestone decision authority has oversight over all aspects of the
acquisition and not just its live fire testing. When the Project Manager was pursuing the
ECV2 Program, the milestone decision authority was the Program Executive Officer.




7
  (U) According to a representative from the TACOM Life Cycle Management Command, the Army has
indirectly invested about $35 million in the development of the ECV2. According to a representative from
the Office of the Project Manager for Tactical Vehicles, the Army spent about $22.8 million on the testing
of the ECV2. The sum of the indirect investment in the development of the ECV2 and its testing is
$58 million.
                                               SECRET
                                                 49
                                       SECRET




Glossary (U) 

(U) Acquisition Category. An acquisition category facilitates decentralized decision
making and execution as well as compliance with statutorily imposed requirements. The
categories determine the level of review, decision authority, and applicable procedures.
Acquisition categories include I, II, III, and IV. The following is a definition for an
Acquisition Category I:

                 (U) Acquisition Category I. An Acquisition Category I program is
defined as a major Defense acquisition program estimated by the Under Secretary of
Defense for Acquisition, Technology, and Logistics to require an eventual expenditure of
research, development, test, and evaluation funds of more than $365 million in FY 2000
constant dollars, or of procurement funds of more than $2.19 billion in FY 2000 constant
dollars, or is designated by the Under Secretary of Defense for Acquisition, Technology,
and Logistics to be an Acquisition Category I program. Acquisition Category I programs
have two subcategories: Acquisition Category ID and Acquisition Category IC. The
Under Secretary of Defense for Acquisition, Technology, and Logistics designates
programs as Acquisition Category ID and Acquisition Category IC.

              (U) Acquisition Category ID. For this category, the Under Secretary of
Defense for Acquisition, Technology, and Logistics is the milestone decision authority.
The “D” refers to the Defense Acquisition Board that advises the Under Secretary of
Defense for Acquisition, Technology, and Logistics at major decision points.

               (U) Acquisition Category IC. For this category, the DOD Component
Head or, if delegated, the DOD Component Acquisition Executive, is the milestone
decision authority. The “C” refers to Component.

(U) Acquisition Strategy. An acquisition strategy is a business and technical
management approach designed to achieve program objectives within resource
constraints. It is the framework for planning, directing, contracting for, and managing a
program. The acquisition strategy provides a master schedule for research, development,
test, production, fielding, modification, postproduction management, and other activities
essential for program success. It is the basis for formulating functional plans and
strategies such as the test and evaluation master plan, the acquisition plan, and the
competition strategy.

(U) Anamorphic Dummy. An anamorphic dummy is one that is jointed and weighted
to represent a human. It is used in impact testing in vehicles to show how a human body
would respond in the same situation.

(U) Curb Weight. Curb weight is defined as the weight of a ground vehicle including
fuel, lubricants, coolant, and on-vehicle material, but excluding cargo and operating
personnel.

                                       SECRET
                                         50
                                                SECRET


(U) Fragmentation Armor Kits. High Mobility Multi-Purpose Wheeled Vehicles can
be equipped with the following armor kits, separately or in combination:

               (FOUO) Fragmentation Kit 4. Fragmentation kit 4,
                                                 would add an additional 151 pounds (an
engineering estimate) to the gross vehicle weight. However, the Product Manager for
Light Tactical Vehicles did not field fragmentation kit 4 because of weight constraints.*

                (FOUO) Fragmentation Kit 5. Fragmentation kit 5 includes
improvements to the                                        Fragmentation kit 5 vehicles
typically include the
                                 Gross vehicle weights of HMMWVs with the
fragmentation kit 5 and objective gunner’s protection kit components are approximately
15,400 pounds. Objective fragmentation kit 5 provides             and includes
fragmentation kits 1 and 2, which provide
             .*

                (FOUO) Fragmentation Kit 6. Fragmentation kit 6 is an integrated kit
that includes some components from fragmentation kit 7 and
        . Fragmentation kit 6 includes
                                              Gross vehicle weights of HMMWVs with
the fragmentation kit 6 upgrades are approximately 17,400 pounds.*

                   (FOUO) Fragmentation Kit 7. Fragmentation kit 7 includes an


                                                                            Gross
vehicle weights of HMMWVs with fragmentation kit 7 upgrades are approximately
16,300 pounds. Fragmentation kit 7 can be installed only on HMMWVs with
fragmentation kit 5, not on HMMWVs with fragmentation kit 6.*

(U) Gross Vehicle Weight. Gross vehicle weight is the curb weight of the vehicle plus
personnel and their individual equipment and weapons, and payload. Payload includes
nonessential mission kits, such as a cargo compartment heater kit, crew protection and
winch kits, and radios.

(U) High Mobility Multi-Purpose Wheeled Vehicle (HMMWV). The HMMWV is a
lightweight, highly mobile, diesel-powered, four-wheel-drive tactical vehicle that uses a
common chassis to carry a wide variety of military hardware, ranging from machine guns
to tube-launched, optically tracked, wire command-guided antitank missile launchers.
There are 15 HMMWV configurations, consisting of cargo and troop carriers, weapons
carriers, ambulances, and shelter carriers. The variants share a common engine, chassis,
and transmission, with 44 interchangeable parts that are used in more than 1 position.


*
    This paragraph omitted For Official Use Only information.
                                                SECRET
                                                  51
                                        SECRET




                 (U) Up-Armored HMMWV. The up-armored HMMWV is a
production-model HMMWV that is required by warfighters operating in Operation Iraqi
Freedom and Operation Enduring Freedom. Up-armored HMMWVs feature
ballistic-resistant windows and steel-plate armor on the doors and underside to protect
against rifle rounds and explosive blasts, fragmentation protections, and additional armor
for the turret gunner on the roof. The up-armored HMMWV also has a powerful
air-conditioning system.

(U) Improvised Explosive Device (IED). An IED is a bomb constructed and deployed
in ways other than in conventional military action. An IED may be partially made up of
conventional military explosives, such as an artillery round, attached to a detonating
mechanism.

(U) Independent Research and Development (IR&D). IR&D consists of contractor
self-initiated projects falling within basic research, applied research, development, or
systems and other concept formulation studies. It does not include the costs of effort
sponsored by a grant or required in the performance of a contract. An IR&D effort
should not include technical effort expended in developing and preparing technical data
specifically to support submitting a bid or proposal.

(U) Joint Light Tactical Vehicle (JLTV). The JLTV is an Army-led multi-Service
initiative to develop a family of future light tactical vehicles to replace many of the
HMMWVs in service. There are three categories of JLTVs being developed.

              (U) Category A. Category A vehicles are intended for general-purpose
mobility and would carry a 3,500-pound payload.

               (U) Category B. Category B vehicles are intended to serve as infantry
carriers, command and control and reconnaissance vehicles, and weapons carriers and
would carry a 4,000- to 4,500-pound payload.

                (U) Category C. Category C vehicles are intended to serve as shelter
carriers, prime movers, and ambulances and would carry a 5,100-pound payload.

(U) Mine Resistant Ambush Protected-All-Terrain Vehicle (M-ATV). The M-ATV
is a scaled-down, all-terrain, four-wheel offspring of the larger Mine Resistant Ambush
Protected vehicle. The M-ATV is one of the first vehicles designed with Afghanistan in
mind. The M-ATV includes a significantly increased power-to-weight ratio, a
turbo-charged diesel V8 engine, a shorter wheelbase for improved cross-country
mobility, and a lower center of gravity for increased maneuverability.

(U) Mine. A mine is an explosive weapon hidden underground or underwater that
triggers when an individual or vehicle moves over it or is nearby. Mines are often placed
in groups, forming a mine field. Because of the use of mines, most nations now include
specialist mine disposal teams in their armed forces.
                                        SECRET
                                          52
                                         SECRET




(U) Monocoque Vehicle. In a monocoque vehicle, the body is combined with the
chassis in a single unit that utilizes the external skin to support some of the load. This
type of vehicle construction is an alternative to using an internal frame or chassis that is
covered with cosmetic body panels.

(U) Pillar. A vehicle pillar is a vertical beam of material that supports its structure.
HMMWVs have three pillars: an A-pillar, a B-pillar, and a C-pillar. See the yellow,
green, and purple shaded areas, respectively, in the figure below for the location of each
of the pillars.

         (U) M1151-Model HMMWV with A-, B-, and C-Pillars Highlighted




(U) Recapitalization. Recapitalization involves the complete rebuild of currently
fielded systems to like-new condition. The objectives of the recapitalization process
include extending service life, reducing operating and support costs, enhancing
capability, and improving system reliability. Recapitalization can be further subdivided
into rebuild and upgrade processes, which are funded with Operation and Maintenance
appropriations and Procurement appropriations, respectively.

(U) Reliability Enhanced Vehicle. The Reliability Enhanced Vehicle is an upgrade to
the HMMWV platform. It was designed by AM General to withstand the environment in
Southwest Asia under increased payload demands. The development of the Reliability
Enhanced Vehicle began in mid-2006, and the vehicles are now in full production. Some
of the improvements to the platform include a geared fan drive, a new power steering
pump, new shock absorbers, and a new three-piece frame rail and crossmembers. These
improvements were made to the M1151-, M1152-, and M1165-model HMMWVs.
Reliability Enhanced Vehicles have a serial number of 300,000 and above.




                                         SECRET
                                           53
                                                           SECRET

Director,
Office    Operational
       of the Director, Test and Evaluation
                        Operational          Evaluation(U)
                                    Test andComments
Comments



                                          (UNCLASSIFIED)
                          OFFICE OF THE SECRETARY OF DEFENSE
                                       1700 DEFENSE PENT...GON
                                      W"'SHINGTON, DC 2030 1·1700


                                                                              OCT 1 3 1009


      MEMORANDUM FOR DEPARTMENT OF DErENSE (000) INSPECTOR
                       GENERAL (IG)

      SUBJECT: Recapitalization and Acquisition of Light Tactical Wheeled Vehicles (000
               IG Project No. D2009-DOOOAE-0007.000)

             Thank you for the opportunity to review and comment on the sUbject draft report.
      I have reviewed the referenced report and per your request, comments regarding
      recommendation A.2. are provided below. In addition, relevant information is provided
      for your consideration regarding recommendation A.l.c.

             DOT&E concurs with you r recommendation A.2, "the Director, Operational Test
      and Evaluation, add the XMI 166 vehicle to the Office of the Secretary of Defense Test
      and Evaluation Oversight List for live fire test and evaluation oversight." Although
      DOT&E agrees that oversight of this program is appropriate, the High Mobility Multi-
                                   Click to add JPEG file
      purpose Wheeled Vehicle (HMMWV) Armor program, which encompasses the XMl166
      as well as all other HMMWV variants, has been on the Office of the Secretary of Defense
      Test and Evaluation Oversight List for live fire test and evaluation since 2006.
      Therefore, adding the XM l 166 as a separate program on the Oversight List is
      unnecessary.

              With respect to A. I .c., ooT&E will require adequate live lire and operational
      tests to determine the effectiveness, suitability and survivability of the XMl166 in the
      event the Secretary of the Army decides to recapitalize the current HMMWV fleet. This
      potential XM 1166 test program would verify your assumption that the scmimonocoque
      hull provides increased crew protection as compared to the M 11 51 HMMWV. It is not
      apparent from our review o f the XMII66 data that the scmimonocoQue hull alone
      provides an increase in crew protection.

             I wi!! continue to make my statT available to you as your office prepares its final
                                  on this matter is my deputy for Live Fire Test and




                                                    1. '/J(. ~~...~.
                                                  q Michael Gi lmore
                                                    Director




                                         (UNCLASSIFIED)

                                                           SECRET
                                                             54
                                                           SECRET

Assistant
Office     Secretary
       of the        of the
              Assistant     Army (Acquisition,
                        Secretary              Logistics,
                                  of the Army (Acquisition,
and Technology)
Logistics,                    (U)
                  CommentsComments
           and Technology)



                                       (UNCLASSIFIED)
                                    DEPARTMENT OF THE ARMY
                              OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                  ACQUISITION LOGISncS ANQTECHI'iOLOGY
                                            103 ARMY PENTAGON
                                           WASHINGTON OC 20310


                                               OCT 2 3 200S



      MEMORANDUM FOR Inspector General, Department of Defense

      SUBJECT: DoDIG Draft Report - "Acquisition and Recapitalization of Light Tactical
      Wheeled Vehicles~ - Project D2009-DOOOAE-007.000

      1. Thank you for the opportunity to review and comment on the DoDIG Draft Report -
      ~Acquisitionand Recapitalization of Light Tactical Wheeled Vehicles~ - Project D2009-
      DOOOAE-007.000. Specifically, you asked ASA (ALT) to respond to recommendations
      contained in paragraphs A and B.

          a. The HMMWV has completed Itle DoD Live Fire Test Requirements in
      accordance with OSD Live Fire Test and Evaluation (LFTE). Therefore, ASA (ALT)
      does not concur with the recommendations in paragraph A to continue to test XM 1166.
      Additionally. the Army has not laid out a requirement that would establish a need to
      recapitalize the HMMWV fleet to the XM1166 or similar capability. Therefore. ASA(AlT )
      does not concur with determining the feasibility or planning for the recapitalization of the
      HMMWV lIeet to the XM1166.  Click to add JPEG file
          b. The Army has decided to take no further action on the Next Generation
      Expanded Capacity Vehicles (ECV2). therefore ASA (Al T) does not concur with the
      recommendations contained in paragraph B. Should the Army revisit the ECV2. the
      recommendations contained within paragraph B will be laken under consideration in the
      acquisition planning.

      2.   Additional comments to the report are attached in the enclosure.

           The                                                                ,or e-mail:




      Encl                                          t.~fJ
                                                    Brigadier General, GS
                                                    Deputy for Acquisition and
                                                       Systems Management




                                                 FOUO




                                        (UNCLASSIFIED)

                                                           SECRET
                                                             55
                                                   SECRET





                                                                                              Final Report 

                                                                                               Reference


                               (UNCLASSIFIED)
Audit of Army Acquisition Actions in Response to the Threat to light Tactical
Wheeled Vehicles (Project No. D2009-DOOOAE-0007.000)

ASA (AL T) Review of DoDIG Draft Report

Re commendations:

Al.a. Nonconcur. The HMMWV has completed DoD live Fire Test Requirements lAW
OSD Ufe Fire Test and Evaluation (LFTE).

A .I .b. Nonconcur. The HMWMV has completec' DoD Live Fire Test Requirement lAW
OSD LFTE. HMMWVs are not being Recapped to AOR threat levels. The XM1166
would not meet HMMWV ORO requirements.

A.l.C. Nonconcur. The HMWMV has completed DoD Live Fire Test Requirement lAW
OSD LFTE. HMMWVs are not being Recapped to AOR threat levels. The XM1166
would not meet HMMWV ORO requirements.

A2. The HMMWV is already on the Oversight List.

B.l. The Army is taking no further action on the Next Generation Expanded Capacity
Vehicles.

B.2.a. The Army is taking no further action on the Next Generation Expanded Capacity
Vehicles.

                          Click to add JPEG file
B.2.b. The Army is taking no further action on the Next Generation Expanded Capacity
Vehicles.

Page 2, Armor for High Mobility Multipurpose Wheeled Vehicles (1 "' Paragraph)
(U) Correction: This paragraph should be classified as SECRET.                              Revised, Page 2

Page 4, Review of Internal Controls
Statement
(U) • ... Specifically, the Project manager Tactical Vehicles planned to acquire the ECV2
to replace the current ECV model HMMWV without first determining through the Joint
Capabilities Integration and Development System process whether current or projected
tactical wheeled vehicles already provide the capabilities planned for the ECV2 Program
without establishing the ECV2 Program as a new start, and without planning to obtain
full and open competition."
Comment
(U) Correction: The ECV2 project was based upon the validated 2004 HMMWV ORO
and coordinated through the Milestone Decision Authority that the effort represented an
appropriate evolution of the program. Product Manager Light Tactical Vehicles
conducted a marKet survey to assess if another company could meet the schedule and
require menls for test assets. No viable alternatives were found. This attempt highlights
the desire for competi tion within the PM.




                                (UNCLASSIFIED)
                                                   SECRET
                                                     56
                                                                 SECRET





                                                                                                           Final Report 

                                                                                                            Reference

                                             (UNCLASSIFIED)
              Audit of Army Acquisition Actions in Response to the Threat to Light Tactical
              Wheeled Vehicles (Project No. D2009-DOOOAE-0007.000)

              Page 5, Live Fire Test and Evaluation
              Statement
              (U) M8y law, a covered system is any vehicle , weapon platform. or conventional weapon
              system that includes features designed to provide some degree of protection to users in
              combat and that is an ACAT I or II program.
              Comment
              (U) Note: The HMMWV is an ACAT III program. with the full knowledge of the Army and
              Defense Acquisition Executive . Although documentation has been submitted requesting
              review to ACAT I, that decision was not made at the time the ECV2 effort was evaluated .

              Page 5, XM1166 Configuration
              Statement
              (U) -The XM 11 66 can carry 528 pounds more payload than the Ml 151 with
              fragmentation kit 5 under full combat load.~
              Comment                                                                                    Revised, Page 6

              (U) Correction: The XM1166 does not carry more payload , the payload of the M1151
              and XM1166 are both estimated at 2,300-lbs.
              Page 7, Cessation of Army Acquisition, 2nd paragraph
              Statement
              (UNFOUO) ~ However, the doors in the XM1166 have integrated fragmentation kit 5 level
              protection in addition to the XM1166's semimonocoque welded cab, which introduces
              improved crew survivability against _ through significant structural
              improvements to the crew compartment as compared with the M1151 model HMMWV *
              Comment
                                        Click to add JPEG file
               (U) Note: The statement of ~against_ does not appear to be supported in test
              events against FK5 eq uipped vehicle~ety confirmation for the XM1 166 does
              not contain those words and only provides that assessment against the baseline M1114,
              not the M1114 or M1151 with fragmentation kits applied *

              Pago 7, XM1166 Tost Rosults
              Statement
              (UNFOUO)      ~The November 2006 Capabilities and Limitations Report for the XM1166
              stated that insufficient XM1166 assets were provided for ballistics testing and that
              additional lED test events were needed to fully cha racterize the XM1166's ballistic
              survivability. Accord ingly. a complete analysis of the XM1166 as compared with the
              M1151 is not possible until all necessary tests are conducted on the XM1166. †
                                                                                           R




              Comment
              (U) Note: The XM 1166 conducted the appropriate tests as required in support of Urgent
              Material Release. The statement of insufficient test assets is common language across
              many platforms for solutions developed to meet Urgent Operation needs. (Reference
              the CLR for the M1151 and M1114 fragmentation kit 5). This comment could be added
              as a footnote if not incorporated into the body of the paragraph .

              Page 8, HMMWV Protection Requirements, 1·t paragraph
              Statement
              (U ) Statement on M1151 with fragmentation kit and opaque armor requirements.
              Comment
              (U) Subsequent to vulnerability testing the PM upgraded the C-pillar with 1" aluminum
              plate. The modification was cut into production and retrofit kits were provided to



                                                         2



* This paragraph omitted For Official Use Only information.
† This paragraph does not contain any For Official Use Only information.

                                             (UNCLASSIFIED)
                                                                SECRET
                                                                  57
                                                                   SECRET





                                                 (UNCLASSIFIED)
              Audit of Army Acquisition Actions in Response to the Threat to Light Tactical
              Wheeled Vehicles (Project No. D2009-DOOOAE-0007.000)

              Theater. Frag Kit 5 was a side threat solution and did nol include roof upgrades. Frag
              Kit 7, currently being fielded, improves overhead protection.

              Page 8, HMMWV Protecti on Requirements, 2nd paragraph
              Statement
              (UNFOUO) "Further, in a large-scale North


                                                  are
              with fragmentation kit 5 installed. ~   *
              Comment
              (UNr OUO) Note: This note was identified during our initial report review and remains
              valid . This comment implies that the current enemy in Theater has demonstrated a
              distinct tendency. PM LTV is aware of the NATO            which highlighted that skilled




              -
              and trained soldiers will shoot at windows,
              assessment that the current enemy had or
                        *
              Page 10, Gross Vehic le Ac celerati on, 2nd paragraph
              Statement
              (UNFOUO) "The Project Manager stated the acceleration mitigation requirement for all
              seats is the same and that the commander's seat used in the M1151 passed the mine
              survivability requirements established in the 2004 HMMWV Operational Requirements
              Document in a test on the M1 152 model HMMWV. However, the mine test conducted
                                           Click to add JPEG file
              under the front commander's side wheel did not measure for acceleration injuries"†
              Comment
              (Uh'FOUO) Correction : There are no acceleration requirements for all seat positions.
              The requirements are for crew survivability. How the system is designed to mitigate the
              acceleration forces from a system level event may include, but are not limited to,
              controlling the forces at the seat base. Anamorohic dummies were positioned in the two
                                                              †
              crew locations to measure acceleration forces.

              Page 12, Recapitalization of the HMMWV
              Statement
              (U) "The Army Deputy Chief of Staff (G-8). in the April 2009 pre..-decisional Light Tactical
              Vehicle Fleet Management and Investment Strategy, recommended ending HMMWV
              production in FY2010; continuing the recapitalization of the M1151 , M1152, M1165 and
              M1167 model HMMWVs; and using depot facilities for modernization. A representative
              of the Army Deputy Chief of Staff (G-8) stated that the XM 1166 was not considered in
              the pre..-decisional Light Tactical Vehicle Fleet Management and Investment Strategy
              because the Army Deputy Chief of Staff (G-8) was unaware of the vehicle's existence ."
              Comment
              (U) Note: The XM1 166 was not type classified , does not have a Full Material Release
              and does not meet current validated HODA G3 requirements . Therefore. it is not
              included in the current authorized P-forms and would not have been included in the draft
              and predecisional Lig ht Tactical Vehicle Fleet Management and Investment Strategy.
              HODA G8 SSO's were aware of the project.




                                                            3




* This paragraph omitted For Official Use Only information.
† This paragraph does not contain any For Official Use Only information.

                                                 (UNCLASSIFIED)
                                                                  SECRET

                                                                    58

                                                                   SECRET





                                                                                                            Final Report 

                                                                                                             Reference

                                              (UNCLASSIFIED)
              Audit of Army Acquisition Actions in Response to the Threat to Light Tactical
              Wheeled Vehicles (Project No. D2009-DOOOAE-0007.000)

              Page 12, Proj ect Manager Actions
              Statement
              (U " FOUO) MThe Project Manager had not assessed the feasibility iIIPitariZing other
              HMMWV models to the XM1166 to gain greater protection against               A
              representative from Red River Army Depot in Texarkana , Texas , stated that
              recapitalizing current HMMWVs to the XM1166 model was an excellent proposition
              because the U.S. Govemment owns a level three technical data package for the
              XM1166 ."   *
              Comment
              (U) Correction: Statement of "to gain greater protection against.    is vague and
              doesn't explain how it is greater. The XM1166 also provides lower protection against
             _       Note: Current recapitalization of HMMWVs is for the M1097R1 .    *
              Page 13, Conclusion
              Statement
              (UNFOUO) ~The XM1166 crew compartment structure, which features welded joints
              instead of~ joints of the M1151 , helps to prevent the vehicle from collapsing
              duringan _      " *
              Comment
              (U) Note: Although the structures are different, report did not provide supporting
              evidence trom modeling or live fire events for this conclusion.

              Statement
              (UNFOUO) "The XM1166 has a thicker. welded , underbody panel than t~
               , I I"  ,-                Click to add JPEG file
                           • - , • • • ter increased protection trom injury caused by _ _

                                          *
              Comment                                                                                     Added,
                                                                                                          Added, Page
                                                                                                                 Page 89 

              (U) Note: Although the XM1166 does have a thicker underbody. there is no supporting
              documentation of enhanced protection against a relevant threat and threat positioning.

              Statement
              (UUFOUO) "Unlike the M1 1S1 . the XM1 166 has an integrated. energy-absorbing
              support structure on the battery box under                                 the
              effects of gross vehicle acceleration tram                               *
              Co mment                                                                                    Added,
                                                                                                          Revised,Page
                                                                                                                   Page1111 

              (U) Note: Reducing the effects of gross vehicle acceleration from an_
              evenl includes a system level approach of which energy absorbing mechanics or
              materials may be a component . The M11S1 meets the requirement of the system. The
              report incorrectly concentrates on a specific material used instead of on the results
              achieved. Further. the report states in a related footnote that while the M11S1
              commander's seat cushion has a rubber acceleration mitigation device. the Army did not
              test this device to measure for acceleration injuries. All mine shots included anamorphic
              dummies to measure acceleration forces. *

              Statemen t
              (UHFOUO) "The XM1166 has thicker transpa rent door ~
              that may help prevent injury to vehicle occupants from _ *




                                                           4




* This paragraph omitted For Official Use Only information.
                                              (UNCLASSIFIED)
                                                                  SECRET
                                                                    59

                                                                  SECRET





                                                                                                            Final Report 

                                                                                                             Reference


                                              (UNCLASSIFIED)
              Audit of Army Acquisition Actions in Response to the Threat to Light Tactical
              W heeled Vehicles (Project No. D2009-DOOOAE-0007.000)

              Comment
              (U) Note: Although the XM1166 does have thicker side transparent armor, there is no
              supporting documentation of enhanced protection against a relevant threat and threat
              positioning .

              Statement
              (W/FOUO) MThe XM1166 provides additional payload capacity over the currently fielded
              M1151 with fragmentation kit 5 installed. †
                                                       ft




              Comment
              (U ) Correction : The XM1166 does not carry more payload . As stated previously in          Revised, Page 6

              comments , the payload of both vehicles is the same, estimated at 2,300-lbs .

              Page 13, Conclusion, 21'\d paragraph
              Statement
              (U) &IEDs are a major cause of death and injury in Iraq and Afghanistan . W ith the
              semimonocoqu~ of the XM1166, recapitalized HMMWVs may provide increased
              protection from _
                                   M
                                    *
              Comment
              (U) Note: There is no validated requirement for additional HMMWVs in Theater beyond
              those being upgraded with fragmentation kit 6. Recapitalization of HMMWVs to
              XM1166s would give the Army a system that is not type classified , does not have Full
              Material Release and does not meet the requirements of HQDA G3.

              Statement
                                         Click to add JPEG file
              (U) ~ In addition, as discussed in Finding 6, the HMMWV program has crossed the
              threshold for an ACAT I program and meets the definition of a covered system for live
              fire testing. Accordingly, the Director, Operation Test and Evaluation , needs to add the
              XM1166 to the live Fire Test and Evaluation Oversight List. ~
              Comment
              (U) Note: The HMMWV is already included on the LFTE Oversight Ust. There is no
              need to specify a specific model . Should the Army decide to pursue the XM1166 variant
              it would by default be included in LFTE Oversight.

              Page 14, Recommendations
              Statement
              (U) ~A 1. We recommend that the Assistant Secretary of the Army (Acquisition,
              Logistics, and Technology) direct the Program Executive Officer for Combat Support and
              Combat Service Support to:
                      (U) Ma. Continue live fire tests on the XM1166 in accordance with the M1151
                                                                                              ft

              test plan to ensure the test results of the XM1166 and M1151 are comparable .
              Comment
              Nonconcur. The HMMWV has completed DoD Live Fire Test Requirements lAW aSD
              Ufe Fire Test and Evaluation ( LFTE ).




              Statement




                                                            5



* This paragraph omitted For Official Use Only information.
† This paragraph does not contain any For Official Use Only information.

                                             (UNCLASSIFIED)
                                                                  SECRET
                                                                    60
                                                                     SECRET




                                                                                                               Final Report 

                                                                                                                Reference

                                               (UNCLASSIFIED)
              Audit of Army Acquisition Actions in Response to the Threat to Light Tactical
              Wheeled Vehicles (Project No. D2009-DOOOAE-0007.000)

                     (U) ~ b . Determine the feasibility of recapitalizing High Mobility Multi-f'un:lOs,e
              Wheeled Vehicles currently in use to
              greater protection for soldiers                                        *
              Comment
              (U) The HMWMV has completed DoD Live Fire Test Requirement lAW OSD LFTE .
              HMMWVs are not being Recapped to AOR threat levels. The XM1166 would not meet
              HMMWV ORO requirements .

              Statement
                      (U) ·c. If it is determined feasible , recapitalize current
              Purpose Wheeled Vehicles                            i I
              protection for soldiers                                             *
              Comment
              (U) The HMWMV has completed 0 00 live Fire Test Requirement lAW OS D LFTE.
              HMMWVs are not being Recapped to AOR threat levels. The XM1166 would not meet
              HMMWV ORO requirements.

              Page 15, B. Army Management of the Next Generation Expanded Capacity Vehicle                   Page 20
              Acquisition, 1" paragraph
              Statement
              (U) MThe Project Manager for Tactical Vehicles (Project Manager) planned to acquire
              the ECV2 to replace some of the current ECV model HMMWVs without first:
                  1) (U) -establishing the ECV2 Program as a new start acquisition program ,"
              Comment
                                          Click to add JPEG file
              (U) The MDA determined that the ECV2 effort was part of the HMMWV evolution .
              Statement
                  2) (U) -planning to conduct futl and open competition , or"
              Comment
              (U) Product Manager Ught Tactical Vehicles conducted a maritet survey to assess if
              another company could meet the schedule and requirements for test assets . No viable
              alternatives were found. This attempt highlights the desire for competition within the PM .
              Statement
                  3) (U) ~ determ i ning through the Joint Capabilities Integration and Development
                      System process whether the ECV2 Program wilt provide capabilities that will be
                      provided by other current and projected tactical wheeled vehjc\es . ~
              Comment
              (U) The ECV2 project was an evolution of the HMMWV based upon the validated 2004
              ORO.

              Page 15, B. Army Management of the Next Generation Expanded Capacity Vehicle                   Page 20
              Acquisition, 2nd paragraph
              Statement
              (U) "As a result. the Project Manager did not plan to afford the Under Secretary of
              Oefense for Acquisition . Technology and Logistics the opportunity or information to make
              an informed decision on the need to procure 11 ,500 ECV2s for $3.84 billion . The ECV2
              would duplicate the capabilities of, or not be as capable as. other tactical vehicles bei ng
              acquired . such as the Mine Resistant Ambush Protected-A11-Terrain Vehicle (M-ATV)
              and the Joint Ught Tactical Vehicle (J LTV)."
              Comment



                                                             6




* This paragraph omitted For Official Use Only information.
                                                (UNCLASSIFIED)
                                                                     SECRET
                                                                       61

                                                                 SECRET




                                                                                                           Final Report 

                                                                                                            Reference

                                              (UNCLASSIFIED)
              Audit of Army Acquisition Actions in Response to the Threat to Light Tactical
              Wheeled Vehicles (Project No. D2009-DOOOAE-0007.000)

              (U) Correction: The assessment of the ECV2 system as a HMMWV variant would
              provide the Army another capability, but was nol intended to replace all HMMWVorders.
              It was considered a varianl and HQOA would need to identify how many, if any, oftha
              systems would be desired. Decision on quantities would be identified by HQOA based
              upon funding and priorities.

              Page 15, B. Army Management of the Next Generation Expanded Capacity Vehi cle              Page 20
              Acqu i sition, 3'" paragraph
              Statemant
              (U) -After our discussions with all levels of Army acquisition management, the Project
              Manager deferred the acquisition of the ECV2 in May 2009. and put the $3.84 billion in
              funding to better use for FY 20 t a through FY 2013."
              Comment
              ( U) The decision to remove the ECV2 from p-forms was independent of the DoDIG
              audit. The statement "to better use" does not appear to have supporting documentation.

              Page 1 S, Defense Acquis ition System Requirements
                                                                                                         Page 23
              Statement
              (UI/FOUO) "By not managing it as a separate acquisition effort, the Project Manager did
              not give the Under Secretary of Defense for Acquisition, Technology, and Logistics the
              full knowledge and appropriate oversight of the ECV2 Program." *
              Comment
              (Ul/FOUO) Correction: The ECV2 had Office of Secretary of Defense visibility, as the
              HMM'NV is included in thei r oversight list for Live Fire Test and Evaluation *
                                        Click to add JPEG file
              Page 22, Co nclusion, 2"" Paragraph                                                        Page 27
              Statement
              (U) "After our discussions with all levels of Army acquisition management, the Project
              Manager deferred the acquisition of the ECV2 in May 2009 and put the fund ing to better
              use."
              Comment
              (U) The decision to not pursue the ECV2 variants was independent of the DODIG audit.
              The statement "and put the funding to better use" is not supported in this document.

               Page 22, Recommendations                                                                  Page 27
               Comment
               (U) At this time, the report's recommendations are no longer valid. given that the ECV2
               effort has been ended and brought to a logical conclusion as directed by the Project
               Manager and Program Executive Officer, and there is flO funding currently available to
               support continuation.




                                                          7




* This paragraph does not contain any For Official Use Only information.
                                              (UNCLASSIFIED)
                                                                 SECRET
                                                                    62
                                                             SECRET

U.S. Army Training and Doctrine Command Comments (U)




                                          (UNCLASSIFIED)

                                       OEPARTMENT OF THE ARM Y
                        HEAOOUARTEHS, UNIT"ED STATES ARMY TRAINING AND DOCTRINE COMMAND
                                                 102 MCNAIR DRIVE
                                        FORT MONROE, VIRGINIA 23651 -1047
              REI1.HO
              ATl'Etm:)r<~




      ATI A                                                                      6 October 2009


      MEMORANDUM FOR Inspector General, Department of Defense, 400 Army Navy
      Drive, Arlington, VA 22202-4704

      SUBJECT: Command Comments to Draft Report - Recapitalization and Acquisition of
      Light Tactical Wheeled Vehicles {Project No. D2009-DOooAE-0007_oo0j

     1. HQ TRADOC comments to the subject draft report are enclosed. We concur with
     comments to Recommendation B- 1 as addressed to the Assistant Secretary of the
     Army (Acquisition, Logistics, and Technology), in coordination with the Commanding
     General, U.S. A rmy Training and Doctrine Command.

     2. Point of contact i

      FOR THE COMMANDER:
                                     Click to add JPEG file

     End
                                                     ~
                                                    KIMBERLY DAWN CVA
                                                    Director, Internal Review
                                                     And Audit Compliance




                                          (UNCLASSIFIED)


                                                             SECRET
                                                               63
            SECRET





  (UNCLASSIFIED)




Click to add JPEG file




  (UNCLASSIFIED)


            SECRET
               64
                                                   SECRET





                                 (UNCLASSIFIED)

JROC for approval. The AoA is on-going in support of a Milestone B decision
anticipated to occur in 40 FY 11.

3. The Functional Solutions Analysis, the Evaluation of Alternatives, and the ongoing
AoA analyzed J will analyze the capabilities of currently fielded and future light tactical
wheeled vehicles. The AoA will be conducted as directed by the Office of the Secretary
of Defense Guidance for the Joint Ught Tactical Vehicle Analysis of Alternatives, dated
17 January 2009. This guidance directs that the "Base Case" alternative will be the light
tactical vehicle fleets programmed for FY 2013. The AoA will use several alternatives,
which currently include HMMWV (as the Base Case FY 2013 LTV Fleet), Mine
Resistant Ambush Protection (as a Commercial Off the Shelf (COTS) solution), and a
New Start (JLTV). Given the HQ DA decision not to fund I procure the ECV2, it is not a
member of the Base Case FY 2013 LTV Fleet.



                           Comments Approved by Chief, Sustainment Division, AACIC




                            Click to add JPEG file




                                 (UNCLASSIFIED)


                                                   SECRET

                                                     65

SECRET





SECRET

